<html>
<title> - DRONES: THE NEXT GENERATION OF COMMERCE?</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]







                DRONES: THE NEXT GENERATION OF COMMERCE?
=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 17, 2015

                               __________

                           Serial No. 114-37

                               __________

Printed for the use of the Committee on Oversight and Government Reform





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

96-870 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                    Sean McLaughlin, Staff Director
                 David Rapallo, Minority Staff Director
   Troy D. Stock, Information Technology Subcommittee Staff Director
                Michael Kiko, Professional Staff Member
                          Mike Flynn, Counsel
                    Sharon Casey, Deputy Chief Clerk
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 17, 2015....................................     1

                               WITNESSES

The Hon. Michael Whitaker, Deputy Administrator, Federal Aviation 
  Administration, U.S Department of Transportation
    Oral Statement...............................................     5
    Written Statement............................................     8
John Cavolowsky, Ph.D., Director, Airspace Operations and Safety 
  Program, National Aeronautics and Space Administration
    Oral Statement...............................................    17
    Written Statement............................................    19
Mr. Paul E. Misener, Vice President of Global Public Policy, 
  Amazon.com, Inc.
    Oral Statement...............................................    30
    Written Statement............................................    32
Mr. Brian Wynne, President and CEO, Association for Unmanned 
  Vehicle Systems International
    Oral Statement...............................................    39
    Written Statement............................................    41
Mr. Harley Geiger, Advocacy Director and Senior Counsel, Center 
  for Democracy and Technology
    Oral Statement...............................................    46
    Written Statement............................................    48

                                APPENDIX

Statement of Mr. Chaffetz........................................    88
Statement of Mr. Connolly........................................    89
RESPONSE: Whitaker-Faa to Chaffetz QFRs..........................    90
RESPONSE: Misener-Amazon to Duckworth QFRs.......................    95
RESPONSE: Wynne-AUVSI to Duckworth QFRs..........................    96

 
                DRONES: THE NEXT GENERATION OF COMMERCE?

                              ----------                              


                        Wednesday, June 17, 2015

                  House of Representatives,
      Committee on Oversight and Government Reform,
                                           Washington, D.C.
    The committee met, pursuant to call, at 9:04 a.m., in Room 
2154, Rayburn House Office Building, Hon. Jason Chaffetz 
[chairman of the committee] presiding.
    Present: Representatives Chaffetz, Mica, Duncan, Jordan, 
Walberg, Amash, Gosar, DesJarlais, Farenthold, Massie, Meadows, 
Buck, Walker, Hice, Carter, Grothman, Hurd, Palmer, Cummings, 
Maloney, Norton, Lynch, Connolly, Duckworth, Kelly, Lawrence, 
DeSaulnier, Welch, and Lujan Grisham.
    Chairman Chaffetz. The Committee on Oversight and 
Government Reform will come to order.
    Without objection, the chair is authorized to declare a 
recess at any time.
    I'm excited about this hearing. I appreciate the panelists 
that are here today. This is a first in a series of hearings 
the Oversight and Government Reform Committee intends to have 
as we talk about emerging technologies. One of the great 
competitive advantages for the United States of America is our 
leadership in information technology. It's our leadership in 
creativity. It is the entertainment industry. We lead in a lot 
of different areas. And one of the things that the United 
States has done, has been a bastion, it's been a great place 
for entrepreneurs to come up with creativity and allow those 
ideas to enter the marketplace and thrive. And they create 
whole new industries. They create literally millions of jobs 
and billions of dollars in revenue and income. And there are 
also some interesting public policy issues that we need to 
discuss.
    As you have new and innovative companies and ideas and 
products and services that consumers are demanding and that the 
public wants, then we have an opportunity, I think, to make 
sure that we're fostering that growth and creating an 
atmosphere where those businesses and entrepreneurs can thrive. 
So today, we're going to start talking about drones, the next 
frontier for commerce because it does offer some exciting 
possibilities. But it also does create some challenges and some 
things that as the public and as a society we need to talk 
through.
    Right now, drones are being widely used. First responders 
are using them to deliver food and medical supplies in areas 
hit by disaster. Law enforcement envisions using drones to 
locate missing persons. I, in the State of Utah--we have, State 
of Utah, for instance, with a very big rural component, where 
we have, at times, raging wildfires and massive public lands. 
We have people who travel from out of State and want to enjoy 
our national parks, like Arches and Canyonlands, and yet they 
get lost sometimes. And it's terrain that's very difficult and 
very expensive for a helicopter to traverse. Maybe drones are 
the way to do that.
    Companies big and small are finding new and innovative ways 
to use drones for inspecting and ensuring the safety of 
infrastructure, railroad tracks, and telecom systems. I think 
about Alaska and the pipelines. And there are other great 
places where drones can be of great help. These drones are 
being used to monitor oil and gas pipelines, as I mentioned, 
crops and livestock. They're using them at music festivals and 
giving the real estate industry a whole new perspective on 
property and real property, as people look at potentially 
purchasing things. You have the big, innovative companies that 
just a decade or two weren't even a business, weren't even 
around, companies like Amazon or Google, who are researching 
and developing systems that would allow merchants and customers 
to deliver and retrieve packages via drones.
    This is a huge, massive opportunity for the United States 
of America. On February 15 of this year, the FAA released a 
proposed rule on the commercial use of drones. This came after 
years of delays on the heels of a June 2014 report by the 
Department of Transportation inspector general that criticized 
the FAA for being significantly behind its efforts to integrate 
drones into the National Airspace System. The IG concluded that 
it was unlikely that FAA would meet the statutory deadline of 
September of this year, 2015, to integrate drones into our 
airspace.
    In addition, under current FAA regulations, as well as the 
proposed rule, it is very difficult for companies that are 
interested in developing transformative drone technology to 
even go through the testing of these ideas. Developers have 
been forced to either limit their testing to small confines of 
indoor spaces in the United States or to test overseas in a 
country where the rules are more flexible.
    In March of 2014, Google's so-called Project Wing started 
testing deliveries of drones but did so in Australia. A year 
later, in March of 2015, Amazon began testing drone deliveries 
in Canada and the United Kingdom, after months of waiting for 
an approval here in the United States of America, so that they 
could test real-world environments in the United States.
    According to the UAV trade association--and, yes, there is 
UAV trade association--every year that integration is delayed, 
the United States loses more than $10 billion in potential 
economic impact. I recognize that privacy and safety concerns 
exist. And I personally share many of those. I don't want my 
neighbor flying a drone over my backyard, peering in my window.
    And I certainly don't want law enforcement using drones for 
constant surveillance, particularly on private property. But 
are there appropriate uses for drones in the law enforcement 
atmosphere dealing with large crowds and large events, say, the 
Super Bowl or a Major League Baseball game or whatever it might 
be? Yes, I think there are appropriate uses. But can they be 
overused? Yes. And that's why we need to talk about, candidly, 
about the parameters of that.
    I also do believe that there are states' rights; States 
have a say in this. At what point does the airspace start to 
become a Federal issue? What is the Federal nexus? At what 
point is it a State issue? Because maybe these drones are going 
to land. I think the States and municipalities probably want to 
have a say in that as well.
    But I would like to think that we can get this right. In 
fact, we must get it right. The opportunities truly are 
limitless. And this is why we're having the discussion today.
    We have a leader in the transportation industry, the former 
chairman of the T&I Committee, Transportation and 
Infrastructure, T&I Committee here in the United States 
Congress. He's the chair of our Subcommittee on Transportation 
and Physical Assets. I would like to yield some time to Mr. 
Mica for his comments.
    Mr. Mica. Thank you. And I'll be brief. You've covered 
quite a bit, Mr. Chairman. Thank you for conducting this 
hearing, particularly at the full committee level because this 
does demand not only the Congress' attention but the Nation's 
attention.
    Drones are here. And UAVs are here. And they're here to 
stay. When we worked on FAA reauthorization back in 2003, which 
is not that long ago really, a dozen years ago, we never even 
talked about drones. In the last FAA reauthorization, about 6, 
7 years ago, we did direct FAA to move forward with rules. And 
we--it's important, it's important, first, for safety. I think 
we've been very fortunate. We've had some near misses, and 
we've had some hits. But I think you can have the potential of 
having deadly, involving fatalities incidents with so many--we 
now have so many of these UAVs and drones in the air. We now 
have thousands of them flying. The rules are sketchy. The rules 
of incomplete.
    Looking over the progress that has been made and the rule 
has been semifinalized. It's not finalized. People have had a 
period to comment. But it's still going to take, I'm told, at 
least another year to finalize that rule and get it in place. 
In the meantime, again, we have the safety issue. Today, we're 
focusing on commercialization use of the drone.
    And I'm told that we lose as much as $10 billion a year in 
revenue for possible use of this, with this technology with 
commercial applications. So we can't delay. I think this is 
good timing for the hearing. We'll find out where we are with 
the progress of the approval and then some of the applications 
and then try to stay ahead of the game, which is our 
responsibility in Congress, particularly on the 
commercialization side and the benefit of the American people.
    So, with that, Mr. Chairman, I yield back.
    Chairman Chaffetz. I thank the gentlemen.
    Now recognize the distinguished ranking member, Mr. 
Cummings of Maryland, for his opening statement.
    Mr. Cummings. Thank you very much, Mr. Chairman, for 
calling this hearing.
    This is a really interesting hearing and one that I think 
is extremely important. Drones are an exciting new technology 
with a lot of potential uses in the not so distant future. 
Companies are developing new technologies to use drones to 
fight forest fires or even to deliver pizza.
    However, Mr. Chairman, I share the same concerns as you and 
many other Americans. I want the use of drones to be safe. And 
I want to make sure that the privacy interests of the American 
people are protected. As with any new, groundbreaking 
technology, our regulatory regime has not yet fully caught up 
with drones. And existing rules do not fully address the 
concerns Americans have. Our goal must be to balance these 
concerns in a way that allows for the robust development of 
these new technologies while ensuring that necessary safeguards 
are in place.
    In 2014, there were more than 9.5 million commercial 
airline flights carrying more than 850 million passengers in 
the United States, according to the Bureau of Transportation 
Statistics. Our aviation system is among the safest in the 
world. And, obviously, we must ensure that drones do not 
imperil the operation of our commercial airlines. Allowing 
drones to fly in the airspace used by commercial jets is a 
long-term aspiration rather than an imminent possibility.
    However, although the FAA has approved only a small number 
of drones to operate in the United States airspace, the 
assistant inspector general of the Department of Transportation 
has testified to Congress that airline crews have already 
reported seeing unmanned aircraft around airports, in some 
cases at altitudes above 2,000 feet.
    Right now, there does not appear to be a proven technology 
to ensure that an unmanned aircraft can act on its own to 
identify and avoid other aircraft. There also does not appear 
to be a proven technology to ensure that radio links between 
drones and their operators are maintained consistently. This 
could cause drones to crash or, equally dangerous, fly out of 
control. Our aviation system does not allow a wide margin of 
error. A system to manage drone traffic, even at low altitudes, 
is still in the very early stages of development and is not 
really for deployment.
    Recognizing the limits of existing technology, the FAA has 
proposed new regulations that would allow drones weighing less 
than 55 pounds to operate only during daylight hours, under 500 
feet, and less than 100 miles per hour. These rules would also 
require that drones fly within the line of sight of their 
operators, who would be allowed to operate only one drone at a 
time.
    The use of drones in the United States airspace also raises 
significant privacy concerns. Drones have been used to gather a 
wide variety of film footage of people and property. They have 
been used to gather real-time data on the movements of people 
without those people even knowing the drones were present. This 
data can be stored indefinitely. And it can be analyzed and 
integrated to create very detailed pictures of almost every 
aspect of a person's life. These possibilities raise a host of 
privacy concerns that have not been fully addressed by current 
law or legal precedent.
    Once it has been lost, privacy is not easily regained. 
Successfully introducing drones into U.S. airspace will require 
all parties to strike a balance that threads numerous needles 
carefully. I'm confident that this can be achieved. But I'm 
certain it will take time and thoughtful analysis.
    And I certainly appreciate the opportunity to consider 
these issues today. And I look forward to the testimony of our 
witnesses.
    Mr. Chairman, you're absolutely right. We have to get this 
right. And we have to get it right in a bipartisan way. And I 
look forward to doing that.
    With that, I yield back.
    Chairman Chaffetz. I thank the gentleman.
    I'll hold the record open for 5 legislative days for any 
members who would like to submit a written statement. I now 
recognize our panel of witnesses. And we do appreciate all five 
of you participating with us today.
    We are pleased to welcome the Honorable Michael Whitaker, 
Deputy Administrator for the Federal Aviation Administration of 
the United States Department of Transportation; John 
Cavolowsky--did I pronounce that properly I hope--PhD, he's 
also the Director of the Aerospace Systems Program Office at 
the National Aeronautics and Space Administration; Mr. Paul 
Misener, who has been with us before, I think yesterday, the 
vice president of global public policy at Amazon.com; Mr. Brian 
Wynne is the president and chief executive officer of the 
Association of Unmanned Vehicle Systems International--we are 
pleased that you're here with us as well; and Mr. Harley Geiger 
is the advocacy director and senior counsel at the Center for 
Democracy and Technology. He'll give us an interesting 
perspective, particularly as it comes to privacy issues.
    Welcome all.
    Pursuant to committee rules, all witnesses are to be sworn 
before they testify. So if you would please rise and raise your 
right hand.
    Do you solemnly swear or affirm that the testimony you're 
about to give will be the truth, the whole truth, and nothing 
but the truth? Thank you. Let the record reflect that all 
witnesses answered in the affirmative.
    In order to allow time for discussion, we would appreciate 
it if you would limit your verbal comments to 5 minutes. You'll 
see a light there that will give you an indication. And then 
your full written statements will be entered into the record.
    We also anticipate that members after the hearing will have 
additional questions. We call them QFRs, questions for the 
record. We would appreciate your response to those as well.
    But for your verbal comments, we'll start with Mr. Whitaker 
who is now recognized for 5 minutes.

                       WITNESS STATEMENTS

          STATEMENT OF THE HONORABLE MICHAEL WHITAKER

    Mr. Whitaker. Thank you, Chairman Chaffetz, Ranking Member 
Cummings, members of the committee. I appreciate the 
opportunity to be here today to discuss the safe integration of 
unmanned aircraft systems, or UAS, as we refer to them, in the 
national airspace.
    Aviation has always been an industry driven by new 
technology. Unmanned aircraft are born from that same spirit of 
innovation. As you've noted in your opening remarks, this 
technology has thousands of potential uses, from agricultural 
to news gathering to firefighting and border patrol.
    But it also introduces new risks into the Nation's 
airspace. At the Federal Aviation Administration, our challenge 
is to allow for this innovation while maintaining the highest 
level of safety. I'm pleased to report that we've made great 
strides over the past year towards safely integrating UAS into 
what is the largest, most complex aviation system in the world.
    The FAA Modernization and Reform Act of 2012 laid out a 
framework of the safe integration of UAS into the airspace by 
September 2015. And FAA has made significant progress in 
meeting those milestones. Perhaps most important among these 
accomplishments is the publication of the ``Small UAS Notice of 
Proposed Rulemaking.'' This rule, as proposed, creates one of 
the most flexible regulatory frameworks in the world for UAS 
operations. We've received thousands of comments to the NPRM. 
And we're in the process of reviewing those now. Issuing a 
final small UAS rule remains one of our highest priorities.
    At the same time, we are taking other steps to enable 
industry to take advantage of this new technology now. The FAA 
continues to issue exemptions under section 333 of the 2012 act 
to allow for commercial activity in low-risk, controlled 
environments. Currently, the FAA is, on average, issuing more 
than 50 section 333 exemptions each week. We also continue to 
work with our partners in government and industry to overcome 
the largest technical barriers to UAS integration, while 
ensuring the continued safety of the airspace. There is still a 
lot to learn about the capabilities and risks posed by UAS. 
That is why we are leveraging a variety of research tools to 
give industry greater flexibility and provide FAA additional 
data that could inform future standards.
    In December 2013, the FAA selected six cites to test UAS 
technology and operations. These test sites are providing 
valuable data to our tech center in New Jersey. And we recently 
announced the Pathfinder Program to study UAS operations in 
circumstances beyond those currently being approved. For 
example, BNSF Railroad will explore the challenges of using 
these aircraft to inspect rail infrastructure beyond visual 
line of sight in isolated areas.
    These partnerships with industry will help us determine if 
and how we can safely expand unmanned aircraft operations 
beyond the parameters set forth in the proposed rule. Beyond 
commercial applications, UAS's have become increasingly 
available and affordable to the average consumer, most of whom 
are not trained aviators. Accordingly, the FAA is taking a 
proactive approach to educate the public on the safe and 
responsible use of UAS's. We partnered with members of industry 
and the modeling community to initiate the Know Before You Fly 
outreach campaign, providing recreational operators with the 
information they need to fly safely and responsibly. This 
outreach has been successful. And several UAS manufacturers now 
voluntarily include educational materials in their packaging.
    The FAA also initiated a No Drone Zone campaign to raise 
awareness of the prohibition of flying unmanned aircraft near 
outside sporting events. In May, we built on that success and 
launched a public outreach campaign for Washington, D.C., to 
reinforce the message that the city itself and all communities 
within 15 miles of National Airport constitute a No Drone Zone.
    While our preference is to educate amateur operators about 
legal compliance, we will use administrative and enforcement 
action to gain compliance when appropriate. Local law 
enforcement is often in the best position to respond quickly. 
The FAA recently issued guidance to first responders on how 
they can best assist us. The United States has the safest 
aviation system in the world. And our goal is to integrate this 
new and important technology while maintaining that high level 
of safety. The FAA has successfully integrated new technologies 
in our aviation system for more than 50 years. And we will do 
the same with unmanned aircraft. We look forward to continuing 
to work with Congress and industry to achieve these common 
goals.
    Thank you. And I'm happy to take questions.
    [Prepared statement of Mr. Whitaker follows:]
  
  
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    Mr. Mica. [presiding.] Thank you.
    And we will withhold questions until we have heard from all 
the panelists.
    Next, we will hear from Dr. Cavolowsky. He is the Director 
of Airspace Operations and Safety Program at the National 
Aeronautics and Space Administration.
    Welcome. And you're recognized, sir.

              STATEMENT OF JOHN CAVOLOWSKY, PH.D.

    Mr. Cavolowsky. Chairman Chaffetz, Ranking Member Cummings, 
and members of the committee, good morning. And thank you for 
this opportunity to testify on NASA's Aeronautics Research 
Program and the R&D challenges associated with the operations 
of unmanned aircraft systems in the national airspace.
    NASA's strategic thrust and assured autonomy defines our 
vision and approach for supporting the integration of UAS in 
the NAS. Our near-term research builds the foundation for the 
more extensive transformative changes that autonomous systems 
will bring over the mid and far term. UAS and autonomous 
systems hold great promise for the transformation of our 
aviation system. And we are witnessing the dawn of a new era of 
aviation innovation, ushering in flight vehicles and operations 
that are unimaginable today and opening up entirely new 
commercial markets, much the way jet engines did 60 years ago.
    NASA is performing research and transitioning concepts, 
technologies and knowledge to the FAA and other stakeholders to 
help them define the requirements, regulations, and standards 
for safe, routine NASA access. Still, there are significant 
barriers and research challenges associated with the 
introduction of autonomous systems and technologies into our 
aviation system. Addressing these requires the complex systems 
to be comprehensibly evaluated to verify and validate they're 
operating as designed, thus allowing the FAA to establish 
operations and equipment standards.
    Now, a significant part of NASA's near-term research work 
towards safe UAS integration is focused in three areas: First, 
our sense-and-avoid research is helping to determine 
performance requirements for a certifiable system to ensure 
safe separation of UAS with all vehicles operating on the NAS. 
Second, we're developing secure, robust, reliable communication 
systems and protocols. And, third, we're addressing the design 
of ground control stations and displays to maximize pilot 
effectiveness and safety.
    Now, to transfer our research findings, NASA has built 
effective partnerships with key stakeholders, certainly the 
FAA, but the Department of Defense, also the Department of 
Homeland Security, and industry and academia as well. In these 
partnerships, NASA is playing a significant role, supporting 
critical activities from the executive level down to our 
subject-matter experts.
    Now, for mid-term applications, NASA is researching novel 
concepts and technologies to facilitate safe operation of the 
UAS at altitudes that are not actively controlled today, such 
as small UAS, 55 pounds or lighter, operating at altitudes of 
500 feet or below. In order to safely enable widespread 
civilian UAS operation at lower altitudes, NASA is developing 
an air traffic management-like system called UAS Traffic 
Management or UTM. You can think of this much like today's 
surface traffic management where vehicles operate within a 
rule-based system, consisting of roads, lanes, signs, and 
traffic lights. Similarly, the UAS system would provide 
services, such as airspace corridors, terrain avoidance, route 
planning, and separation management.
    Working alongside many committed partners, NASA will lead 
the research, development, and testing of the UTM, utilizing a 
series of prototypes or builds, each increasing the capability. 
In fact, the first build will be evaluated in a demonstration 
in August of this year. Also, in late July, NASA is holding a 
UTM convention to explore and define the needs of low-altitude, 
small UAS operations. Over 500 attendees representing the UAS 
stakeholder community, Federal, State, and local government, 
and the general public have registered to attend.
    So through game-changing, long-term research, NASA enables 
growing, sustainable, and transformative aviation systems. 
Achieving this through partnerships built upon clear roles and 
responsibilities, on long and productive working relationships, 
and in close and continuous coordination for the specific needs 
of UAS integration. As the challenges of UAS integration evolve 
and emerge, NASA Aeronautics will continue to advance the 
research and develop the enabling technologies that will assure 
the safe realization of the transformative benefits of UAS and 
increase the competitiveness of the U.S. Civil aviation 
industry.
    Thank you again for the opportunity to speak today. And 
I'll be pleased to answer any questions the committee may have.
    [Prepared statement of Mr. Cavolowsky follows:]
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    Mr. Mica. Thank you.
    Again, we'll withhold questions until we've heard from all 
witnesses.
    Let me recognize now Paul Misener, vice president of Global 
Public Policy with Amazon.
    Welcome. And you're recognized.

                  STATEMENT OF PAUL E. MISENER

    Mr. Misener. Thank you, Mr. Chairman and Mr. Cummings, very 
much for inviting me. Drones will provide the next generation 
of commercial delivery service when permitted. So policymakers 
should expeditiously adopt rules of operation that emphasize 
drone safety and system performance. Thank you for your 
attention to this important topic and for holding this hearing.
    Amazon Prime Air is a future service that will deliver 
packages of up to 5 pounds to customers in 30 minutes or less 
using small drones, also known as unmanned aircraft systems or 
UAS. Flying beyond line of sight, under 500 feet, and generally 
above 200 feet for takeoff and landing, and weighing less than 
55 pounds total, Prime Air small UAS vehicles will take 
advantage of sophisticated sense-and-avoid technology, as well 
as a high degree of automation to safely operate at distances 
of 10 miles or more, well beyond visual line of sight.
    No country in which we have distribution facilities has yet 
adopted rules that would allow commercial UAS package 
deliveries. So we are working with government agencies to 
develop appropriate rules for small UAS operations. Such rules 
must allow SUAS operations to take advantage of a core 
capability of UAS technology, which is to fly with minimal 
human involvement beyond the visual line of sight of a human 
operator. Such rules of operation should be proportionate to 
risk, setting a level of safety but not mandating how that 
level must be met.
    Safety is Amazon's top priority, a top priority I know we 
share with the FAA and NASA. And we are committed to mitigating 
safety risks. Key aviation authorities outside the United 
States are rapidly pursuing regulatory frameworks and 
operational rules for UAS. Their approach is risk and 
performance based and is mindful of the tremendous 
opportunities for innovation and economic benefits that UAS 
present.
    Here in the United States, the FAA also is taking its UAS 
responsibility seriously. And Amazon is grateful for the 
attention the agency is giving to this new, innovative 
technology. The FAA's small UAS NPRM is a step forward, as it 
speaks to the need for a performance-based approach to 
rulemaking. We are fully supportive of this approach and agree 
with it.
    At the same time, the NPRM has shortcomings, mostly because 
some of the prohibitions maintained are not actually 
performance based. And if adopted as drafted, the rules would 
not establish a regulatory framework to permit Prime Air 
operations in the United States.
    More specifically, we respectfully disagree with the FAA's 
current opinion that extending see-and-avoid principles to 
small UAS, as well as the potential loss of positive control of 
small UAS present, ``unique safety concerns,'' which, thereby, 
warrant delayed consideration. Although these safety concerns 
present particular engineering challenges to be sure, such 
challenges are not qualitatively different from the other 
engineering challenges facing small UAS designers. So they 
should be assessed starting now, ultimately resulting in 
performance-based operating permissions.
    Granted, regulators here and abroad cannot quickly adopt 
actual rules for operation beyond visual line of sight. That 
may take time. But American policymakers should quickly propose 
regulatory frameworks and rules for future commercial SUAS 
operations. Amazon believes that the FAA should act 
expeditiously and asks that Congress provide legislative 
guidance to the agency and, if necessary, provide additional 
legal authority.
    First and foremost, SUAS regulations must be risk and 
performance based. That is, SUAS rules should take into account 
the risks of operation, including, for example, the absence of 
passenger and crew, the lower kinetic energy of aircraft, and 
the very low operating altitudes, and evaluate how UAS 
performance mitigate these risks. Categorical prohibitions--for 
example, no nighttime operations or no operations beyond visual 
line of sight--make no sense and must be avoided. Likewise, 
highly automated UAS vehicles should be allowed to fly if they 
meet performance-based safety requirements. And, thus, a single 
UAS operator should be able to oversee simultaneous operation 
of multiple highly automated small UAS vehicles.
    Given the interstate nature of commercial SUAS operations, 
States and localities must not be allowed to regulate SUAS that 
the FAA has authorized, including with respect to airspace, 
altitude, purpose of operations, performance, and operator 
qualifications. Uniform Federal rules must apply.
    In conclusion, Mr. Chairman, I look forward to working with 
you and your committee and the FAA to help the United States 
expeditiously adopt rules for SUAS operations that emphasize 
safety and system performance and, thereby, permitting drones 
to provide Americans the next generation of commercial delivery 
service safely and soon. Thank you. I welcome your questions.
    [Prepared statement of Mr. Misener follows:]
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Mica. Thank you.
    And we'll now hear from Mr. Brian Wynne, president and CEO 
of the Association for Unmanned Vehicle Systems International.
    Welcome. And you're recognized, sir.

                    STATEMENT OF BRIAN WYNNE

    Mr. Wynne. Thank you, Mr. Chairman, Ranking Member 
Cummings, members of the committee. I appreciate the 
opportunity to testify today. I represent the Association for 
Unmanned Vehicle Systems International, the world's largest 
nonprofit organization devoted exclusively to advancing the 
unmanned systems and robotics community.
    AUVSI has been a voice of unmanned systems for more than 40 
years. And currently we have more than 7,500 members, including 
over 600 corporate members. The unmanned aircraft industry is 
poised to be one of the fastest growing in American history. 
Our economic impact study found that the first decade following 
UAS integration will result in more than $82 billion in U.S. 
economic activity and create more than 100,000 new high-paying 
jobs. The FAA Modernization and Reform Act of 2012 established 
a foundation for government and industry collaboration to 
advance this emerging sector.
    As part of this, the FAA is currently working on finalizing 
rules for commercial and public use of this technology. The 
Agency is also granting permission for limited commercial use 
on a case-by-case basis under section 333 of the 2012 act. But 
more can and should be done.
    Despite these positive steps, we need to permit expanded 
uses of UAS technology that pose no additional risk to the 
airspace system. For example, whether within the context of the 
rule, through the reauthorization, or by other means, we need 
to allow for beyond visual line of sight, nighttime operations, 
and operations over congested areas. Otherwise, we risk 
stunting a still nascent industry.
    UAS technology is advancing rapidly thanks to collaboration 
between industry and government. In order to continuing 
encouraging innovation and promoting safety, we need to pass 
and sign into law an FAA reauthorization measure before the 
current authorization expires in September.
    Let me highlight a number of specific directions that we 
would like to see reflected going forward. First, the industry 
supports a risk-based technology-neutral framework. This means 
regulations should be based on the risk profile of a particular 
UAS operation rather than the platform being flown. For 
example, low-risk operations, such as aerial surveys above 
rural farmland, would be regarded as safe with minimal 
regulatory barriers, regardless of the specific technology or 
platform used. This flexible framework will accommodate 
innovations rather than requiring new rules each time a new 
technology emerges.
    Second, we support a comprehensive industry government 
research plan. There is a lot of good work already being done 
and better coordination will ensure we're maximizing the impact 
of these efforts. While the recently announced Pathfinder 
Program and UAS Center of Excellence show great progress, we 
need better visibility on how they will fit into the larger UAS 
integration picture.
    Third, Congress should consider making the FAA UAS tests 
sites eligible for existing Federal funding. While these test 
sites have been active for over a year, access to funding will 
help give industry guidance and an incentive to better utilize 
the test sites.
    Fourth, we support the development of a UAS traffic 
management system. Some commercial UAS operations will occur at 
low levels. And this airspace may become complex. A traffic 
management system will integrate UAS into the existing national 
airspace infrastructure and ensure the continued safety of the 
airspace for all users, manned and unmanned.
    Finally, knowing that UAS integration must be done in 
coordination with the NextGen Air Transportation System, there 
is also an opportunity to consider linking the two efforts and 
their resources more effectively. We are pleased to see the FAA 
recognize the need for more senior-level attention, with a new 
director and a new senior adviser position on UAS integration 
and look forward to working with those individuals once they 
are aboard.
    In closing, UAS technology is at an exciting and pivotal 
stage, with new applications being contemplated nearly every 
day. Unmanned aircraft systems increase human potential, 
allowing us to execute dangerous or difficult tasks safely and 
efficiently. Thank you again for the opportunity to testify 
today. And I look forward to your questions.
    [Prepared statement of Mr. Wynne follows:]
 
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Mica. Thank you.
    And we'll get back to you for questions.
    Mr. Harley Geiger, he is advocacy director and senior 
counsel for the Center of Democracy and Technology.
    Welcome. And you're recognized.

                   STATEMENT OF HARLEY GEIGER

    Mr. Geiger. Chairman Chaffetz, Ranking Member Cummings, and 
members of the committee, thank you very much for giving me the 
opportunity to testify today on the subject of unmanned 
aircraft systems, also known as drones. I am Harley Geiger, 
senior counsel at the Center for Democracy and Technology. CDT 
is a nonpartisan, nonprofit technology policy advocacy 
organization dedicated to preserving civil liberties, such as 
privacy and free speech, while enabling government agencies to 
provide security and companies to innovate.
    I have three overarching points that I want to make with 
regard to drones. My testimony focuses on privacy, although 
clearly there are many other policy issues that are associated 
with unmanned aircraft. First, unmanned aircraft systems are a 
promising technology but have potential to erode civil 
liberties by enabling pervasive surveillance.
    Second, current laws do not provide strong privacy 
protection from government or private unmanned aircraft. And 
the lack of privacy protection undermines public trust, which 
holds back the industry.
    Third, to earn public acceptance of UAS, which will promote 
its commercial growth, both government and the UAS industry 
should fully address civil liberties issues through a 
combination of legislation and an industry code of conduct.
    In my time remaining, I will expand on these points. The 
CDT wants to see UAS used for commerce, for journalism, for 
disaster relief, scientific research, and more. However, 
neither the government nor the UAS industry should ignore the 
potential for UAS to enable pervasive surveillance that 
undermines civil liberties.
    Here is a nightmare scenario for civil liberties. Law 
enforcement establishes a broad-based drone dragnet that 
constantly tracks individuals in populated outdoor areas, 
chilling the public's right to free expression, free 
association and assembly. At the same time, a network of 
commercial unmanned aircraft record footage of virtually every 
American who steps out of her home, even if that individual 
remains on private property.
    This may seem like a far-fetched future to some. However, 
few existing laws would stand in the way. And the public does 
not yet trust the discretion of the government or the UAS 
industry to prevent this scenario from becoming a reality.
    When it comes to government UAS, CDT believes that 
prolonged, physical surveillance of individuals in public 
places violates Fourth Amendment principles. However, the 
Supreme Court has repeatedly held that Americans have no 
expectation of privacy from aerial surveillance. The Supreme 
Court has even held that the Fourth Amendment is not violated 
when a police helicopter looks into the interior of a private 
building through a hole in the ceiling without a warrant.
    Bottom line, there's very little protection in terms of 
privacy from government use of UAS outdoors. Law enforcement 
use is perhaps the most acute concern that the public has with 
UAS. And to address the public's concern, Congress should pass 
legislation that, among other things, establishes due process 
standards for law enforcement use of UAS. And Congress should 
limit law enforcement use to instances where the government has 
a warrant or exigent circumstances or other narrowly tailored 
reasonable exceptions. CDT believes that the Preserving 
American Privacy Act from Representatives Poe and Lofgren, as 
well as Senator Wyden's Protecting Individuals from Mass Aerial 
Surveillance Act, which was introduced today, would provide 
strong due process protection without unreasonably burdening 
non-law-enforcement uses, such as scientific research. CDT 
supports these bills and urges Congress to pass them swiftly.
    When it comes to private sector UAS, common law privacy 
torts provide Americans with some protection from private 
sector UAS out of the home, but only if the conduct is highly 
offensive to a reasonable person. However, any government 
regulation of private UAS must not violate our First Amendment 
right to take photographs from public places. An industry code 
of conduct would help provide privacy protections from private 
UAS where direct regulation cannot. But it will be effective 
only if the industry agrees to adopt a strong and enforceable 
code. The code proposed by AUVSI does not cut it.
    The code should establish reasonable limits on UAS 
collection and retention of personally identifiable 
information. And the code should also create a publically 
accessible registry of UAS data-collection policies, though 
there should be reasonable exceptions for that registry. And 
the code should also establish cybersecurity standards to 
prevent hijacking and unauthorized damage to UAS systems.
    And, finally, CDT recommends that the industry explore 
technical measures to protect individual privacy in physical 
space, as well as enhanced transparency for private UAS 
systems. Thank you very much for holding this hearing. And I 
look forward to your questions.
    [Prepared statement of Mr. Geiger follows:]
  
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    Mr. Mica. Thank you. And I thank all of the witnesses.
    We'll go right to questions.
    As I mentioned in my opening statement, having been 
involved in this a little while, back in 2003, when we did one 
of the first FAA reauthorizations, there was nothing in the 
bill--it's amazing how technology does change our lives. And 
it's amazing how government does fail to keep up with changes 
in technology and craft a law to match that. We fall further 
and further behind it seems. In 2012, when we did the last FAA 
reauthorization, I tried to get specific and hold people's feet 
to the fire. And we do that by putting some milestones and 
deadlines.
    And in the law, we said--for example, Mr. Whitaker--we said 
required planning for integration, this is the law that was 
passed, comprehensive plan not later than 270 days after the 
enactment of this act, the Secretary of Transportation in 
consultation with representatives of the aviation and Federal 
agencies basically would come up with a plan. Was that deadline 
met?
    Mr. Whitaker. Yes, sir. Both a comprehensive plan and a 5-
year roadmap were developed. They were both published in 
November of 2013.
    Mr. Mica. 2013. Okay. To further hold the feet to the fire, 
and some things have been done, as we pointed out and I 
mentioned earlier, we put a deadline, the plan required under 
paragraph 1, shall provide the safe integration of civil 
unmanned aviation systems into the national airspace as soon as 
practical but not later than September 30, 2015. That's the 
deadline we put in there. Is that deadline going to be met?
    Mr. Whitaker. You certainly won't have full integration of 
UAS----
    Mr. Mica. But the deadline is not going to be met?
    Mr. Whitaker. No.
    Mr. Mica. Okay. Okay. When do you predict the deadline will 
be met?
    Mr. Whitaker. We're taking the issue in manageable bites if 
you will.
    Mr. Mica. Yes. And you testified that you're granting 
exemptions and waivers at a pretty rapid rate. What did you 
say, 50 a week or something?
    Mr. Whitaker. Yes, sir.
    Mr. Mica. Yes. But is that, that's not what we intended. We 
intended for, basically, to have the rule in place by 
September. It's not going to be met. Now we're going to do an 
FAA bill, guys and gals, and we should hold their feet to the 
fire again.
    I don't know you hold their feet to the fire because we've 
already, we've missed the deadline that we set in here. But 
we're going to have to do something. Is there something we're 
missing, that we haven't done that could provide you with the 
assets to move forward or make certain this happens as soon as 
possible? And what is your deadline now?
    Mr. Whitaker. We have broken the task into pieces, if you 
will.
    Mr. Mica. When will it be done, what was directed by law?
    Mr. Whitaker. So the rule was issued earlier this year in 
February. Comments were closed in April. We received 4,500, 
approximately 4,500, comments.
    Mr. Mica. All that is part of the record. When will we be 
done?
    Mr. Whitaker. So the rule, we have to adjudicate those 
comments. We'll clear the rule out by the end of the year.
    Mr. Mica. 2016? 2017?
    Mr. Whitaker. The rule will be in place within the year.
    Mr. Mica. Within a year?
    Mr. Whitaker. That's correct.
    Mr. Mica. Okay.
    Mark that down, staff. We could do a hearing a year from 
now and see if they've completed the task.
    The problem we have in the meantime is, again, you're 
granting exceptions and waivers. It's sort of a spotty policy 
that's in place. And some folks talked about addressing risks. 
And that's the most important thing, wouldn't you say, is 
avoiding risk?
    Mr. Whitaker. Safety is certainly our priority, yes.
    Mr. Mica. But by the same token, we're falling a little bit 
further behind than some of the other countries.
    Mr. Misener, what have you seen? This hearing is about 
commercialization and moving forward. Are we, is the U.S. 
falling further behind? I cited $10 billion, I guess $1 billion 
a year for the next 10 years we would lose by not having 
commercial rules in place for operation of drones.
    Mr. Misener. U.S. planning is not as aggressive, Mr. 
Chairman, as it in other countries.
    Mr. Mica. Okay. But there are a host of issues, privacy, 
and we had this little question here with the staff and some of 
us. Who basically is in charge of setting the rules for 
privacy? Is it the individual States and law enforcement? Is it 
the Department of Justice? Is this an FAA responsibility in the 
rules that you're crafting? Mr. Whitaker, maybe you could shed 
some light on how we protect people's privacy.
    Mr. Whitaker. The President issued a Presidential 
memorandum in February designating the National 
Telecommunication Information Administration as the lead on 
this issue. They have opened for public comment. I think that 
has closed. We are certainly a stakeholder in this 
conversation, but we do----
    Mr. Mica. So we need to call them and ask them when they'll 
have their rules in place for protecting privacy.
    Mr. Whitaker. They have the lead on this issue.
    Mr. Mica. But it is multijurisdictional, it's beyond just 
the Federal level to protect privacy, isn't it?
    Mr. Whitaker. Aviation has always been a Federal initiative 
and preemptive of State authorities, and I would assume----
    Mr. Mica. Well, a drone that is operating under 500 feet, 
whose responsibility would that be? Also Federal? Or can you, I 
mean, local law enforcement is already using some devices, and 
other folks are using it. Who controls the--and that's probably 
the biggest concern of privacy is somebody within 500 feet over 
people's homes, property, surveillance capability of these 
drones.
    Mr. Whitaker. By statute, even at those altitudes, it's 
Federal airspace.
    Mr. Mica. Still our responsibility. So we'll wait to see 
the development of that and specifics on that rule. I predict 
that there will be--you know, sometimes we don't move until 
there's an incident. There will be an incident. There will be a 
crash. There will be probably fatalities because you have so 
many of these things flying. I hope it doesn't take down a big 
commercial aircraft. I hope it doesn't have a lot of 
fatalities. But I think it's inevitable. How many thousands of 
these drones are now flying on the--I've heard different 
figures, from several thousand to 20,000 flying.
    Mr. Whitaker. I don't know the exact figures. Perhaps Mr. 
Wynne does. But I think it's important to distinguish the vast 
majority of those are amateur operations. They're not covered 
under the rule. And we're prohibited by statute from regulating 
that sector of the----
    Mr. Mica. So that still remains the primary risk. Did you 
want to comment, Mr. Geiger?
    Mr. Geiger. To your question on who is in charge of privacy 
here, so the FAA is regulating safety. And safety is very 
limited, a very limited mandate when it comes to also providing 
privacy regulations. So I have some question as to whether or 
not the FAA could actually put forth rules on privacy.
    Mr. Mica. And that's what's interesting because when we 
were talking about this several years ago, when we crafted this 
legislation, I was told it was the Department of Justice or a 
judicial matter that privacy and it was outside of our realm to 
regulate. But maybe in this FAA bill, do you think we should 
have, rather than the President set by edict or whatever--
however he did it, what was it, executive order?
    Mr. Whitaker. Presidential memorandum.
    Mr. Mica. Presidential memorandum. Should we have something 
in the Federal law? Final question.
    Mr. Geiger. We do think there should be standards in 
Federal law. The 2012 bill mentioned privacy exactly zero 
times. And the privacy issue has absolutely plagued the 
discussion----
    Mr. Mica. You said that 2012----
    Mr. Geiger. The FAA Modernization and Reform Act.
    Mr. Mica. And I just explained to you, when we started down 
that path, concerns were raised on both sides of the aisle 
about privacy--it's a big deal--that we were told it was 
outside our realm; it was really a judicial matter and outside 
the purview of the Transportation Committee that was 
considering the legislation at the time. So we're basically 
without anything except what the President has set forth. And 
maybe that should, some parts of that should be codified. Is 
that what, that would be a summary or----
    Mr. Geiger. Some parts of it. Although what the President 
set forth is also quite limited. The Department of Justice 
essentially says that, there's some good things in the policy 
guidance from the Department of Justice. But it is also very 
limited. It says they'll respect laws, they'll use UAS for an 
authorized use and harmonized with the Fifth Amendment. But it 
doesn't provide any additional protection really beyond what is 
in current law. The NTIA process is focused just on commercial 
drones. So the NTIA process is not going to touch government 
use.
    Mr. Mica. Okay. Well, let's go to the ranking member, Mr. 
Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. Geiger, the expectation of privacy, you talked about 
that. And certainly we know that in court cases, a lot of the 
question comes down to what is expected of the person. I guess 
when you have drones, it really broadens the expectation, is 
that right? It kind of throws it, it just opens the door to all 
kinds of surveillance. Are you following what I'm saying?
    Mr. Geiger. I do. And I believe this is----
    Mr. Cummings. Can you speak a little louder please.
    Mr. Geiger. I do. And I believe that this is how courts 
will interpret that in the future. Right now, the Supreme Court 
has interpreted the reasonable expectation of privacy doctrine 
to not include aerial surveillance from the publicly navigable 
airspace. And I can only imagine that that reasonable 
expectation of privacy standard or in common law torts what 
accounts as highly offensive to a reasonable person, I will 
only imagine that that will shrink as more and more UAS take to 
the skies.
    This is one reason why we are arguing that current Federal 
law does not provide adequate privacy protection. We should not 
just rely on common law or the fourth Amendment, that there 
ought to be something in Federal law that provides a due 
process standard.
    Mr. Cummings. And what would you, if you were trying to put 
that law together to try to balance allowing drones to operate 
but at the same time trying to maintain some reasonable 
semblance of privacy for citizens of our country, what would 
that look like? I mean, do you have something that you all, 
that you put together that you--what elements would you be 
looking at.
    Mr. Geiger. There are a couple of bills out there right now 
which provide a good starting point, Representatives Poe and 
Lofgren's Preserving American Privacy Act, Senator Wyden's 
Protecting Individuals from Mass Ariel Surveillance Act provide 
good starting points. And both of those bills are focused 
largely on law enforcement use. And this is, as I said, in my 
opening statement, in part because the public's concern with 
privacy and UAS is most acutely felt with law enforcement use. 
I don't think that people are quite as concerned with uses for 
research, disaster relief, and so forth. On the commercial 
side, any regulation would have to be aligned with the First 
Amendment and, therefore, will be limited. So I think in 
combination of a due process standard and an industry code of 
conduct could provide meaningful privacy protection to 
individuals.
    On government use, we think there ought to, generally 
speaking, be a warrant standard with exceptions for exigent 
circumstances and other reasonable exceptions for law 
enforcement use, as well as a registry of government UAS 
applications that is publicly available, much in the same way 
that the FAA currently has the registry for small aircraft.
    Mr. Cummings. You know, with all of the cameras everywhere 
on light posts, on buildings, and, of course, as you well know, 
many crimes are solved, people don't even know that they're 
being observed. And it seems to me there would be, there's an 
argument that with all of that now, the technology out there, 
that why would one want to differ from, I mean stray away, from 
the idea that a drone is going too far. And just as I'm 
talking, I'm figuring out the argument, the drone can follow 
you, as opposed to the light post.
    Mr. Geiger. We do have civil liberties concerns with a 
ground-based, large-scale surveillance system. Our concern is 
largely tech-neutral. But drones do have unique capabilities 
mostly because of their vantage point. If you're taking about 
ground-based CCTV, then if you turn a corner or enter your 
fenced-in yard, then the ground-based CCTV can no longer see 
you. But it would be very hard to escape the scope of 
observation of a sophisticated and high-flying UAS. So the 
privacy intrusion is potentially greater.
    Mr. Cummings. Mr. Misener, can you tell me, tell me about 
how Amazon, I just want to know the logistics, how that works. 
I mean, what are you all trying to do? Somebody has a package 
that they want in Iowa tonight. So what happens?
    Mr. Misener. Well, the customer places----
    Mr. Cummings. And the package is in Washington. Go.
    Mr. Misener. Mr. Cummings, I have 3 seconds.
    Mr. Cummings. I just want to picture how it works.
    Mr. Misener. It's a very fast delivery system. We have 
distribution facilities throughout the country. What we would 
like to be able to do is enable that network of facilities to 
deliver packages to customers more quickly than is currently 
possible using the ground transportation network.
    We looked into all different kinds of functionalities of 
how to get things to customers on a 30-minute-or-less basis. 
And what really works are drones. And so in this way, our 
customer will be able to order something off of our Web site 
and have it delivered in less than 30 minutes to his or her 
home. That means that she doesn't even have to go to the store, 
hop in the car, or try to get a delivery truck to bring it. It 
just gets delivered to her house.
    Mr. Cummings. So it just pops up on a drone right in front 
of your door.
    Mr. Misener. Yes. Yes, sir.
    Mr. Cummings. Okay. Mr. Wynne, the FAA's proposed 
rulemaking lists some----
    Voice. We have got a basket of fresh fruit headed your way 
right now, Mr. Cummings.
    Mr. Cummings. --potential uses of drones such as crop 
monitoring, bridge inspections, and aerial photography. Can you 
give us a few other examples of potential commercial use of 
drones?
    Mr. Wynne. There are, there's all manner of infrastructure 
that needs to be inspected in the country. For example, natural 
gas pipelines, high-utility, high-voltage lines, et cetera. 
That would be another example of large industries that are just 
chomping at the bit to embrace this technology. So there's 
small uses. There's large uses. There's visual line of sight 
when it comes to taking pictures of a house from a different 
angle for a real estate agent, all the way through to insurance 
companies inspecting after a Hurricane Sandy event what is 
going on in a particular area, areas that are inaccessible to 
agents, for example, and gaining information as quickly as 
possible.
    Mr. Cummings. You know, Mr. Whitaker, FAA's mission is, 
``to provide the safest, most efficient aerospace system in the 
world.'' Can you explain some of the challenges of integrating 
drones into our Nation's airspace.
    Mr. Whitaker. One of the challenges is we have a much more 
complex and diverse airspace than any other country and a 
busier airspace. So in addition to four of the biggest airlines 
in the world and dozens of hubs, you have business aviation, 
you have nearly 200,000 general aviation operations, 
helicopters, rescue vehicles that fly in all airspace. So 
integrating, instead of just setting aside a space to operate, 
but actually integrating into the airspace requires that these 
new vehicles be able to stay clear of the existing vehicles. So 
detect and avoid, or sense and avoid, that's a major 
technological challenge that has to be solved. And you also 
have to solve the communications challenge, how the operator 
communicates with the vehicle, what the spectrum is that is 
allocated for that, and what happens if that link breaks. So 
these are some of the technology issues that are being 
researched in various venues that we need to fully understand 
and then build standards around so we can fully integrate this 
into the system.
    Mr. Cummings. You know, not long ago, the fellow had a, 
flew a drone in the vicinity of the White House. And all of us 
were very concerned about that. And I know that that's a 
significant concern of many. And I'm just trying to figure out, 
I mean, if you've got all these objects flying around and then 
you've got a lot of people on the ground and you've got to 
protect airspace, it just seems to me like we are headed 
towards disaster at some point.
    Mr. Whitaker. Well, we're going to try to make sure that 
doesn't happen. There are actually very robust technologies 
that will allow this to happen, and they're being tested in 
various----
    Mr. Cummings. That will allow what to happen.
    Mr. Whitaker. They will allow the vehicles to stay clear 
from humans and other vehicles. We just need to make sure that 
that technology is robust enough to incorporate into our air 
system.
    Mr. Cummings. And I see my time has expired.
    Thank you, Mr. Chairman.
    Mr. Mica. Thank you.
    Mr. Massie.
    Mr. Massie. Thank you, Mr. Chairman.
    Mr. Whitaker, I'm glad to see that we have a proposed rule 
here. We've been waiting on it for a long time. I serve on the 
Transportation Committee, and we've been pushing for this. I'm 
excited to see this. And I think it does allow a large class of 
operations that, heretofore, have not been able to operate.
    Mr. Wynne, can you talk about the types of commerce that 
won't be facilitated by this rule, particularly the requirement 
that at all times, there has to be an operator that's got 
visual line of sight to the drone? Can you talk about some of 
the--some of the applications that can't be practiced because 
of that rule?
    Mr. Wynne. The easy one, as Mr. Misener, the application 
that he was talking about earlier, that does require beyond 
visual line of sight.
    There is all manner of inspections that I was mentioning as 
well. BNSF was mentioned earlier, being able to check for split 
rails in advance of trains, other infrastructure, et cetera. 
And just, if you imagine, one of the early applications, early 
adopters of this technology will be agricultural interests, 
farmers, et cetera, looking to do all manner of inspection of 
their property. Some of these farms are large, of course, and 
someone could easily be flying over their property but have 
that well beyond line of sight, again, basically flying a 
pattern that a computer is controlling, very low altitude.
    So these are the types of operations that we think--some of 
them are more complex than others. We think that there's a way 
to advance the technology, to test the technology. The more 
we're flying, again, equivalent level of safety to the current 
aircraft system, airspace system that we have today, the more 
data we can collect, the more we can test technologies like 
detect and avoid, sense and avoid, et cetera. There are a 
number of those things, low-hanging fruit so to speak.
    Mr. Massie. So, Mr. Whitaker, is there any chance before 
this rule comes out to have a category of drones that are 
authorized in low-risk situations like agriculture or power 
line inspection or rail inspection? Is there a chance to get 
something in the rule for that category?
    Mr. Whitaker. Well, what we've done while the rule is 
pending is we issue exemptions. And we've done over 600 
exemptions for commercial operators. And we've done even more 
than that for public sector operations, for fire and rescue, 
that type of thing. The rule, as you mentioned, will take care 
of a very large subset of operations and will allow a lot more 
commercial innovation without our involvement.
    We've tried to include in the rule the issues where we 
think we have a clear understanding of the safety risks and how 
they can be mitigated. The issues that are outside of the rule, 
like beyond of sight, we think we'll get there, and we're going 
to try to get there as quickly as we can, but there are still 
technology issues and standards that have to be developed. So 
we will have to work very diligently to keep that moving as the 
rule progresses.
    Mr. Massie. All right. Thank you. On to the privacy aspect 
of this, it does present some new challenges. One question that 
I have is, should there be a floor? I mean, we're talking about 
a ceiling of 500 feet. Should there be a floor for operation of 
drones? Do you own the property an inch above your lawn, is a 
question that I have. If you have a gate, a locked gate, on 
your property and somebody climbs over the gate, your 
expectation is they are violating their privacy. What if they 
fly over the gate? And what if they're hovering an inch above 
the ground?
    Mr. Geiger, could you talk to that. From a personal 
property aspect, when is your--when are your property rights 
being violated?
    Mr. Geiger. Courts have generally said that you own a 
reasonable amount of airspace above your property. The 400-foot 
level is more or less arbitrary. An inch above your property? 
Yeah, you probably own that. Thirty feet above your property? 
Not sure. And what counts as reasonable, again, as more and 
more UAS fill the sky in tens, hundreds of thousands, which is 
what we predict in the coming decades, what counts as 
reasonable will probably shrink. And it's not clear what the 
floor will be.
    But, generally, if you can--you have an expectation of 
property ownership and as much airspace as you can use. And so 
the drone would have to violate your--or reduce a substantial 
interest or use in your property in order to be liable for a 
trespass claim.
    Mr. Massie. Maybe the floor is the range for number 12-
gauge with six shot in it.
    Mr. Geiger. You know, it's interesting that you bring that 
up because the concept of shooting down drones, I think, 
demonstrates the depth of concern that people have. And this is 
a privacy-based concern with drones. Now, this happens on a 
pretty regular basis. Right? I mean, just--and 2 weeks ago, 
there were firefighters that were tending to a house fire and, 
in the aftermath of that house fire, used their hose to spray a 
drone that was watching them. The drone was not directly over 
them. So it was not like a safety issue. But it was watching 
them.
    And, you know, I'm absolutely not condoning that type of 
activity. I think that it's very risky. But it demonstrates the 
need for the depth of public concern regarding privacy and I 
think the need for a baseline.
    Mr. Massie. So maybe we need rules of engagement in terms--
in addition to rules of privacy.
    I see my time is expired. I yield back.
    Mr. Mica. Thank you.
    Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman.
    I must say, we're in the infancy of everything here, the 
infancy of regulation, the infancy of the technology. We saw 
that when the drones landed--a drone landed in the White House 
and indeed on these very Capitol Grounds.
    And, Mr. Whitaker, I appreciate that, on May 13, there's a 
release that indicates that you're trying to make the public 
understand that there's a 15-mile radius around the Nation's 
Capitol, that you're not supposed to fly anything. So 
everybody's playing catch up here.
    Now, on one of my other committees, I must tell you, where 
we're really playing catch up is NextGen. So that when I look 
at your regulations and it says ``must yield right of way to 
other aircraft, manned or unmanned,'' I mean, if we had NextGen 
and we knew where even aircraft were flying, then, of course, 
then we might expect drones to somehow operate within our 
airspace safely, more safely. The assistant inspector general 
has testified about the integration of drones into commercial 
airspace, and that's what interests me.
    Does the FAA receive from commercial pilots each month or 
on any regular basis whether they have seen unmanned aircraft 
of any kind?
    Mr. Whitaker. We do receive reports of sightings of 
unmanned aircraft. They typically will come in over the air 
traffic control communication network, and we do track those.
    Ms. Norton. Are those required to be reported, Mr. 
Whitaker?
    Mr. Whitaker. They are required to be reported, yes.
    Ms. Norton. Have any close calls of drones or unmanned 
aircraft with commercial aircraft been reported?
    Mr. Whitaker. We--I don't have any recollection of any 
evasive maneuvers being taken as a result. Mostly what we 
receive is sightings of unmanned aircraft in controlled 
airspace, usually near airports.
    Ms. Norton. Is there any system of licensing these unmanned 
aircraft? I mean, do we even now how many there are in our 
country?
    Mr. Whitaker. We believe that these typically are involving 
the amateur operators of what we tend to call model aircraft, 
but the kind that you can buy and operate anywhere. They are 
unregulated, and we're prohibited by statute from regulating 
that sector of the operation.
    Ms. Norton. Should somebody be regulating that sector? And 
who should be?
    Mr. Whitaker. Well, what we have is we do have areas where 
these operators are prohibited from flying. And so they're 
wandering into prohibited airspace. So, in that sense, they are 
violating law. So our focus, as you have pointed out, has been 
to have an education campaign to let people know where they can 
fly, where they can't fly. We're working to develop an app that 
people can use to see if they're in restricted airspace or 
whether they can fly their unmanned air system. And we work 
with local law enforcement to give them guidelines on how to 
interact with people who are operating in an inappropriate 
fashion.
    Ms. Norton. In light of these proposed rules, Mr. Misener, 
and Amazon's interest it says an operator should be capable of 
seeing the aircraft with vision unaided by any device other 
than corrective lenses. In other words, I suppose you are 
supposed to be within--somehow you're supposed to be able to 
see these drones that you have let loose upon the universe. 
How's that going to work commercially?
    Mr. Misener. Thank you, Ms. Norton. It won't, at least for 
packaged delivery services. We don't disagree that it's a more 
difficult use case to fly drones beyond visual line of sight. 
It is it. It requires a higher degree of automation in 
vehicles, and we are working on that. That kind of technology 
is being developed. Our respectful disagreement with the FAA is 
that we believe that that kind of operation can be considered 
right now on the same risk-based approach. The risks are 
higher----
    Ms. Norton. You think the technology is--the technology 
would allow that now?
    Mr. Misener. Oh, it's in the works, Ms. Norton. And all I'm 
saying is--I'm not saying that the rules for operation need to 
be adopted right now, but the serious planning for those future 
rules need to be undertaken right out. And what the NPRM did 
earlier this year is essentially list that as a prohibited kind 
of a category of operation. And what we're trying to say is 
that that ought to be considered right now, just like other 
countries are considering beyond-visual-line-of-sight 
operations right now.
    Ms. Norton. Mr. Whitaker, this notion of lost link 
scenarios, what's the current state of technology on the links 
between the operator and the drone and the possibility of the 
drone getting beyond the vision or, for that matter, the 
control? I'm sure that the drone that went into the White House 
grounds was beyond his control, for example.
    Mr. Whitaker. So there's research that goes on. There's a 
lot of research that goes on at NASA, at DOD, various sectors, 
on loss of control. We have a center of excellence now at 
Mississippi State, where there'll be research along these 
lines. And as I mentioned----
    Ms. Norton. I mean, if you see a drone going too far, is 
the technology now such that you can call it back?
    Mr. Whitaker. There is technology there that can be used 
for that. And that is the technology that's being tested. As 
that technology is tested, we also have to develop standards 
for operation, particularly in the radio communications 
spectrum and how that gets defined.
    Ms. Norton. Standards, for example, that would link--that 
would make sure that you didn't lose--lose control of your own 
unmanned aircraft.
    Mr. Whitaker. Right. And there are procedures that could be 
followed when that happens.
    Mr. Mica. I thank the gentlelady.
    Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman.
    Thank each of your for your testimony.
    Mr. Misener, let me come to you because I think you were 
indicating that the United States is falling behind on this 
particular use of drone technology to some of competition that 
may be in Europe and other places. Is that correct?
    Mr. Misener. Yes, Mr. Meadows, it is.
    Mr. Meadows. So if we are falling behind--obviously, Mr. 
Whitaker says, we have a vary complex air system, which I would 
agree with that, more complex than Europe--but from a 
regulatory standpoint, do you see that we could perhaps have 
had in this rulemaking going a little bit further to anticipate 
new technology to allow for greater innovation so that we don't 
get beat out by our competition in other parts of the world?
    Mr. Misener. Yes, Mr. Meadows. I firmly believe that, and I 
acknowledge that the U.S. airspace is complicated. But it's 
also complicated around Heathrow and other places around the 
world. And so we need to acknowledge that other countries are 
just taking a more forward-looking planning approach. Again, I 
don't blame the FAA for not having rules in place. This is a 
big challenge, and NASA and the FAA and private industry are 
working together to address the technical challenges. What I'm 
suggesting is that the risk-based approach taken throughout 
much of the NPRM also could be applied to these beyond-visual-
line-of-sight and highly automated operations that we foresee.
    Mr. Meadows. So, Mr. Whitaker, let me come back to you, 
then. I serve on the T&I committee. We've had a number of 
hearings, and we've talked about these six regional test areas 
across the United States. And what I have found interesting is, 
as we have come out with this proposed rule, is that most of 
this seems to be a rule that is looking backwards, not forward. 
For example, I mean, looking at not being able to operate these 
other than line of sight or at night is extremely shortsighted, 
I believe, in terms of a rule. And so it's almost like in order 
to meet some of the deadlines, you've put forth a rule that is 
very restrictive instead of really saying that if there's the 
technology, which we have the technology, to manage this other 
than line of sight, could we not do that in a safe manner?
    Mr. Whitaker. So we had a lot of debate around this as the 
rule was put together, and I think initially there was an 
attempt to boil the ocean, if you will, and take on all 
possible issues in the rule. And the decision was made to come 
up with a less onerous rule that covers the majority of the 
types of operations that we know people want to undertake, that 
the technology is there, it's proven, and it can happen.
    So we defined an envelope of operation, if you will, and 
the things that are in that envelope, it will unleash a lot of 
the commercial needs that's there. The issues that are still 
out there to be worked out and to have standards built around, 
we do have regulatory tools to allow those to go forward 
without waiting for a rulemaking through exemption.
    Mr. Meadows. But, Mr. Whitaker, if we're talking about--you 
say that it would provide for most of what we're talking about, 
I would disagree with that if we're talking about line of 
sight. Because what Mr. Misener and Mr. Wynne are talking about 
really is not line of sight.
    You know, Doctor, you know, you work for NASA. Can you put 
something out in space or on the moon without--in a safe way 
and do it without line of sight?
    Mr. Cavolowsky. Well, I work----
    Mr. Meadows. Be careful how you answer.
    Mr. Cavolowsky. Working in the aeronautics mission at NASA, 
I won't speak to the space applications.
    Mr. Meadows. Well, can't some of your colleagues do that, I 
guess? I mean, do they have to view that the whole way to where 
it lands in order for it to be safe?
    Mr. Cavolowsky. That is certainly not the case.
    Mr. Meadows. Okay. So I guess, Mr. Whitaker, coming back to 
you, I'm going to encourage you, as we are looking for a FAA 
re-auth in less than 60 days, I am encouraging you to be a 
little bit more forward thinking as it comes to the line of 
sight and some of the technology that is available to us 
today--the stakeholders, I mean, it's all over--and because if 
not, your regulations become the throttle or the choke that 
keeps innovation from moving us forward, and ultimately, we 
will lose out to competition abroad. Do I have your commitment 
that you will look at that aggressively?
    Mr. Whitaker. We will. And I think granting the BNSF 
Railroad authority to operate beyond line of sight is part of 
that effort to lean forward.
    Mr. Meadows. All right.
    I yield back. Thank you, Mr. Chairman.
    Mr. Mica. Thank you.
    Mr. Lynch.
    Mr. Lynch. Thank you, Mr. Chairman.
    I want to thank the panel members for your help this 
morning. I think all of your have contributed well to this--to 
the understanding that we are gaining regarding this 
technology.
    Mr. Geiger, I think some of the ramifications that you've 
brought to mind are very, very helpful.
    Mr. Whitaker, the problem that I have, the greatest concern 
I have is the interface or the fit between FAA and a technology 
which might become ubiquitous at some point in the near future. 
And in your testimony or in one of your answers, you said that 
the system being developed will allows us to keep drones away 
from people and other sensitive areas.
    The problem I have is with what you're doing now with 
aircraft. I represent Logan Airport, that area, myself and Mr. 
Capuano from Boston, in the Eighth and Seventh Districts, we 
represent a semicircle around the airport. So we're airport 
communities. And I hate to put this on you, but I would have to 
say that out of all the--of all the agencies that we deal with 
on this committee--and we deal with everybody, NSA, CIA, DOD, 
you know, Defense Department and others, IRS--FAA is probably 
the most unresponsive agency that we deal with in government 
from this committee. And that's just a fact. And I want to give 
an example.
    I am--the FAA has adopted a--since 2013, has adopted a new 
navigation system around airports, NextGen RNAV, they call it. 
I don't know what that means. But I do know that the result of 
that program is that instead of flights being spread out over a 
number of communities, which I represent all of them, and Mike 
does too, Mike Capuano, now we have a different system where we 
have a tractor beam system where all of the flights come over 
the same, I swear, square foot of land, every day, every night. 
And so the people who live underneath that tractor beam, I'm 
worried about their health. Based on the volume and the spirit 
of the calls that I get continually from those neighborhoods 
and those towns, this system is not working. And it is 
detrimental to their health. So, as an elected Representative, 
I tried to get a meeting with the FAA in the town of Milton, 
Massachusetts, which is under that tractor beam. And I wrote a 
letter to Mr. Huerta, who is the regional administrator in my 
area. He refused to come. First, they agreed to come in the 
meeting that I had with them, and then, once they got out of 
the meeting, they changed their mind and said they'd never 
agree to that.
    So I'm trying to get FAA--look, I understand how difficult 
it is to operate, you know, the airport and do your job, but we 
have a basic responsibility to meet with the people that we 
work for. And some of the folks at FAA have said: Those folks 
have yelled at us.
    They have yelled at me too. That's--that's part of the job. 
And sometimes they have a good reason to yell at me and you, 
and I think they have one now.
    But so I have been so frustrated with this process of just 
getting a meeting in the town of Milton that I had to go on the 
floor the other day and put an amendment on the floor to cut 
$25 million from FAA's budget because we give you money to do 
outreach. Well, outreach is not happening in the Eighth 
Congressional District of Massachusetts, I can tell you right 
now. So I figured since you're not doing that job, I'll take 
that money and put it somewhere else where somebody will 
actually use it. So that's where we're at right now, you and me 
and Mr. Capuano and the FAA.
    You're not treating--you know, I don't mind being dissed 
myself. I can deal with that. That's--look, Congress' 
popularity is at 6 percent. I'm used to that. However, when you 
refuse to meet with the people that I represent, then I get 
mad. I can't have that. Nobody here can have that. We all 
represent--look, I represent 727,514 people. Those are my 
bosses. I go to work for them every single day, and I can't get 
a meeting with a group of them and the FAA. So we got a 
problem.
    And now here we are talking about, like I said, this new 
technology at some point could become ubiquitous. So I'm 
nervous because when we have a problem with drones, I'm going 
to have to go to the FAA for a meeting. And they're probably 
going to tell me: Sorry, pal. You know, we're busy. We can't 
meet with you.
    I can't have that answer.
    All right. So you got 3 seconds to answer me.
    Mr. Whitaker. Okay. So, first of all, I apologize if the 
FAA has been unresponsive.
    Mr. Lynch. Apology accepted.
    Mr. Whitaker. I'm not familiar with the issue, but I will 
vow to get back with you directly with a response to that. And 
I think community outreach and engagement is one of the most 
important things that we do. And if we don't do it, 
particularly as we redesign airspace, it does lead to trouble. 
So let me make sure that we get back with you shortly.
    Mr. Lynch. Thank you, Mr. Whitaker.
    I appreciate the chairman's indulgence. Thank you.
    Mr. Mica. All politics is local.
    Mr. Hice.
    Mr. Hice. Thank you, Mr. Chairman.
    Mr. Mica. Wait a second. Mr. Walker was next. I apologize.
    You haven't been heard, Mr. Walker.
    Mr. Walker. Okay. Thank you, Mr. Chairman. Thank you, Mr. 
Hice.
    Mr. Mica. I'm sorry, but you are recognized, Mr. Walker. 
And we'll get to Hice next.
    Mr. Walker. Thank you very much.
    As a member on the Committee of Homeland Security, we have 
had several classified briefings as far as the concerns, even 
locally and regionally. And I know there's a lot of issues that 
have to be worked out, particularly with the UAVs and UAS's.
    I want to take a little bit of a turn here and talk about 
some of the pros, some of the positives, from possibly the new 
technology as we move forward. I always--if you look back 
historically, anytime there's something that's new that 
developed, there's always a lit bit of a pushback and a 
reactionary--even in my 46 years, I can remember several 
different times--timelines when it comes to technological based 
industry or other aspects.
    I want to talk about--maybe start with Mr. Wynne. According 
to your data and your department there, believes that the U.S. 
Could be in line to lose more than $10 billion in potential 
economic impact every year that U.S. integration is delayed. 
Would you take just a minute to speak to that. Is that 
accurate?
    Mr. Wynne. Yes, sir. And that's in the community that I 
represent, the commercial--commercial UAS community. That 
goes--I think there's additional value to--that can be added to 
other industries that want to utilize the technology that go on 
top of that.
    Mr. Walker. Okay. Mr. Misener, what steps--well, let me 
back up just a little bit.
    According to Amazon Prime Air, you have been doing more 
testing in other countries. Can you speak to that as--do you 
have less restrictions? Why is--why do you seem to be doing a 
little bit more testing in other countries as opposed to here?
    Mr. Misener. Thank you, Mr. Walker. I think we have turned 
that corner with the FAA. The FAA has streamlined their tests--
approval process in a way that is beneficial to the industry. 
It's going to accelerate the amount of testing that can be done 
here domestically. We had some difficulties getting that 
approval last year and early this year, but I think we've 
turned that corner now.
    The real direction we need to take now is sort of the 
planning for the operational rules, and we look forward to 
working with the FAA on that, that we're eager to do so. But on 
testing, I think we're able to do it in multiple locations, 
including within the United States.
    Mr. Walker. What is the objective of Amazon, if you give me 
a timeline over the next year to 18 months, where are you 
wanting to see this go, providing that things are worked out 
with the FAA?
    Mr. Misener. Well, we'd like to start delivering to our 
customers as soon as it's approved regulatorily. So we are 
working on the technology as quickly as we can. We've got an 
advance team. Amazon doesn't sound like an aviation company, 
but we certainly have staffed up with aviation experts, 
including, on my team, I've got an 8,000-hour--military and 
commercial pilots on my team. We're taking this very seriously. 
The safety aspect of it is front and center. The team is trying 
to develop this service as quickly as possible.
    Now, there are other things that are going on here. It's 
not just the aviation aspects of it. We have to get our 
fulfillment center and our distribution facilities right 
because to get that 30-minute promise down, we have to get that 
item somewhere in a very large building ready to get to the 
drone. And that--so that presents another set of engineering 
challenges that we're working on for our----
    Mr. Walker. And are--you said ``you're working.'' Do you 
have the technology in place to move forward providing that all 
the other restrictions are given the green light?
    Mr. Misener. Today, no. But we will have it in place by the 
time any regulations are ready. We are working very quickly. 
The iteration process in a company like ours and in a robotics 
mission like ours is very rapid. And so we're confident that we 
will have it in place. And this is why we look forward to 
working closely with the FAA on preparing for those rules.
    Mr. Walker. Okay. Mr. Wynne, what specific solutions can 
you provide this committee that we could act on or--as to not 
only help the development of the commercial UAS but also 
satisfy the FAA's concern for safety?
    Mr. Wynne. Well, I think, as I mentioned in my testimony, 
there's a lot of research and development that's required to 
prove out equivalent level of safety for the more complex 
operations that we can envisage today but can't possibly--or 
can't quite do yet. And NASA plays an important role in this. 
The FAA plays an important role in this. The DOD has 
successfully flown unmanned and manned aircraft in theatre for 
many, many years successfully and safely. They can learn from 
one another, and industry brings a lot of resources and 
technology to the table.
    So one of the key things is to make certain that all of 
that is well coordinated. And I think some outside pressure 
from--for the agencies to work together, I think, is always 
important. That's beginning to happen now, and we're very 
pleased with that, but I think there are resources, ultimately, 
that will be required.
    I know the fiscal constraints on the system require--make 
it difficult for new resources to be brought to the table, but 
we think that with the right coordination, with the right plan, 
we can do that, and I think that's an appropriate role for 
Congress and this committee.
    Mr. Walker. Thank you.
    I see my time is almost expired. So I will yield back to 
the chairman. Thank you very much.
    Mr. Mica. Well, thank you, Mr. Walker.
    Ms. Duckworth, you're recognized.
    Ms. Duckworth. Thank you, Mr. Chairman.
    I'd like to follow up on the see-and-avoid rules.
    Mr. Wynne, I think that your comparison to the military use 
is a little bit off mark because I was actually in charge of 
the State of Illinois National Guard's attempt to establish the 
rules for flying shadow UAVs stateside. And we certainly had to 
comply with the keeping the aircraft in sight at all time rules 
under the FAA on flying it over restricted airspace only as 
well. And so the military actually has to--if we're going to be 
flying those UAVs, actually follow the UAV in the air with 
another aircraft. And I don't think that is something that the 
commercial entities are willing to do at this point. And I 
could be wrong.
    I do want to talk about the safety issue, and I think I'm 
going to direct most of my comments--my questions to Mr. 
Whitaker with the FAA.
    I was flying my aircraft over the Eastern Shore in the 
Patuxent Naval airspace area in contact with air traffic 
control the entire time. And I had an aircraft, a model 
aircraft, bust through the airspace 10 feet off the nose of my 
aircraft about 10 feet away in front. And I was flying at 2,500 
feet. If this can happen with recreational model aircraft 
usage, I have real concerns about UAVs out there flying around.
    And I understand that you have commercial operations. This 
is something where they--what you're trying to do is actually 
make it more regulated. And I would expect that commercial 
entities would be much more responsible about how they fly the 
aircraft.
    Are there any moves to require for commercial use the use 
of transponders on UAVs?
    Mr. Whitaker. So you raise a lot of interesting issues. I 
think. In the small UAS rule, of course, there would be an 
aeronautical knowledge test requirement so your operators would 
be more sophisticated than the amateur operators. A lot of the 
operators on the amateur side are just not from the aviation 
sector and don't even realize that they've entered the world of 
airspace when they open a box for this device. And that's a 
real issue, which is why we have focused on public education 
and that type of thing.
    As far as the use of transponders, these devices, of 
course, come in all sizes. When you get to the small UAS, it--
we're not sure there's going to be a technology that would 
allow that kind of equipage. If you're flying in airspace that 
requires a transponder, a UAS would have to have a transponder. 
Same for the new ADSV rules. But I think when you get to the 
smaller vehicles, you are really looking to systems that talk 
to each other and to vehicles around them to achieve that sense 
and avoid.
    Mrs. Duckworth. Okay. So if I'm out there on my single-
engine 1959 Comanche, not with the most sophisticated--I'm 
going to have the correct transponders on it, but even a small 
UAS hitting the propeller of my aircraft will take me out.
    Mr. Whitaker. Right.
    Mrs. Duckworth. Even a small bird will take me out. Are you 
saying, then, that we are not looking to require some--it's 
just--explain what you mean by--is it a transponder? Is it 
interrogating my aircraft? What is it doing? Because I want to 
know--here's what I want. I as a pilot want to know if there's 
UAS flying in my vicinity so I can see so that it shows up and 
I know that they're there. And, two, if I get hit by one 
ofthese aircraft, I want to know who's flying it. I want a 
serial number on that aircraft. I want the FAA to be able to 
find them and say: You just flew into actual general aviation 
or commercial aviation airspace.
    What is--is there anything in that rule--is there any 
attempt to go after that--those safety concerns?
    Mr. Whitaker. So, right now, we are looking at rule 
separation and procedure separation. So, under the small UAS 
rule, the proposal would be below 500 feet. So you're always 
going to be above 500 feet, unless you're around the airport. 
And the rule would require the UAS to be 5 miles away from an 
airport. So as long as they're following the rules and you're 
following the rules, you have separation. And you also have 
visual-line-of-sight VFR basic operations. That's all that the 
rule contemplates.
    The other issues that you're raising are some of the issues 
that we've been talking about that need additional research, 
need standardization, and a separate set of rules around those 
expanded operations.
    Ms. Duckworth. Okay. Thank you. With the 30 seconds left 
that I have, I just want to put this out there, and I'll put in 
a question for the record. If we're going to talk about 
external load operations, I used to fly sling loads in 
helicopters. There are some significant restrictions. I would 
want to know what Amazon--and, Mr. Wynne, also--what your 
positions are on what are your jettisoning procedures for those 
loads, all of the issues that a helicopter with sling load 
operations would have to follow and adhere by as well.
    Thank you. I yield back, Mr. Chairman.
    Mr. Mica. Thank you.
    Mr. Hice.
    Mr. Hice. Thank you, Mr. Chairman.
    Mr. Whitaker, just kind of a point of clarification for me. 
I think the answer is yes, but I just want to be sure. Does the 
FAA or the administration actually have a plan for directing 
the traffic concerns, or is this something that's being 
developed and still in process? Is there an actual plan?
    Mr. Whitaker. There are two things I think you could put in 
that bucket. There's a comprehensive plan that was developed in 
2013, and then there's a 5-year roadmap that gets updated 
periodically that provides sort of a master planning document, 
if you will, for----
    Mr. Hice. So there is a plan.
    Mr. Whitaker. Yes.
    Mr. Hice. Okay. I thought that was going to be the answer, 
but it was a little confusing.
    Let me go, Mr. Cavolowsky, to you. Of course, we all know 
about the gyrocopter that went down here in the restricted D.C. 
area this past April. The technology that is being developed 
with you guys, would it have detected that gyrocopter?
    Mr. Cavolowsky. So the research we're doing regarding this 
UAS traffic management system is to enable the user of the 
system to be able to track and manage and plan flight routes 
within a very confined airspace. Others that are working--that 
are operating within that airspace would also be detected, but 
if they choose not to file a flight plan, they would not be 
managed by the UTM. So the opportunity for that system to 
identify that there is an operator who is not filing plans and 
not flying within the system can be alerted to the 
authorities--or, you know, through the system such that actions 
could be taken in order to address that.
    Mr. Hice. All right. Well, that's no different than what we 
already have. It was detected with the technology we currently 
have. They thought it was an anomaly or some such kind of 
thing, and you're saying, with your technology, it would be 
detected, but still nothing necessarily would have prevented 
what happened?
    Mr. Cavolowsky. With the technology we are putting in 
place, that is correct. What our technology does is allow for 
the safe use of aircraft that are participating in the system 
to manage their trajectories, to be aware of other aircraft, 
general aviation aircraft, traffic helicopters and the like 
that are flying there so that they can be safely avoided and 
the missions and the business objectives can be met.
    Mr. Hice. Does your technology differentiate between drones 
and, say, movement of birds or weather patterns of what have 
you?
    Mr. Cavolowsky. There are radar systems that are being 
developed as part of this that would be able to detect other 
flying things of particular size. At this point, I'm not sure 
exactly how small that detection goes, but it would allow for 
identification, certainly, of small drones.
    Mr. Hice. All right. Mr. Whitaker, back to you, again. Just 
if I may ask different ones this question, but end of the day, 
who should control, own, manage the traffic management of UAS? 
Does this come down to NASA? Does it come down to the 
government? Does it come down to private enterprise or 
nonprofits? Where does this belong?
    Mr. Whitaker. Well, we would envision that as NASA develops 
this UTM, we would go through a normal handover process and it 
would become part of our airspace that we would manage.
    Mr. Hice. All right. So you say FAA.
    Mr. Cavolowsky. Yes. If I may, sir. That's exactly correct. 
We have a very formal process we've developed with the FAA. We 
refer to them as research transition teams. We work closely 
with NASA researchers, NFA researchers. At the earliest stages 
of our development of concepts and technology, to be able to 
hand to them at determined times that we work by plan for that 
technology at technology readiness levels such that they have 
the opportunity to fit it into their overall program planning 
and the requisition process. So it's very rigorous activity. We 
have had great success with that with other NextGen 
deliverables over the last half a dozen years.
    Mr. Hice. Okay. So NASA's developing the technology but the 
FAA would be using it, and ultimately the buck would stop 
there.
    Mr. Whitaker. That's correct.
    Mr. Hice. Okay. All right.
    Mr. Geiger, let me go back to you real quickly, just 
because I think the issues you've brought up are a great--grave 
concern constitutionally and to many others. And I've just got 
20 seconds, but preemptively, what actions do you believe 
Congress needs to take in order to assure that both the First 
and the Fourth Amendment are not violated to U.S. citizens?
    Mr. Geiger. For government UAS, we recommend legislation 
that establishes a due process standard for law enforcement 
use, and we think that, generally speaking, with some 
exceptions, that that standard should be a warrant when the UAS 
is used to surveil individuals in a personally identifiable way 
or private property.
    When it comes to commercial UAS, we think that the First 
Amendment is going to constrain the scope of any sort of 
privacy regulation, and you could start with common law privacy 
torts, which have a highly offensive to a reasonable person or 
a reasonable expectation of privacy standard. But beyond that, 
it should be an industry code of conduct, which will, because 
it is voluntary, avoid the First Amendment issues. And I think 
that the goal ought to be to provide a reasonable privacy 
assurance to the public so that applications that have a low 
impact on civil liberties, such as commerce or scientific 
research, can grow and the industry itself will take off, so to 
speak.
    Mr. Hice. Okay. Sir, thank you.
    Thank you, Mr. Chairman.
    Mr. Mica. Thank you.
    Ms. Lawrence.
    Mrs. Lawrence. Thank you. Do we have--Mr. Whitaker, do we 
have a proposed timeline for the--officially accepting these 
rules or the process to go through to modify them, make any 
corrections? Do we have a timeline?
    Mr. Whitaker. So there's a statutory 16-month timeframe 
from the close of comments, which was in April. We plan to move 
more quickly than that. We've got 4,500 comments that we're 
adjudicating now, and our internal working target is to have 
the FAA portion of this finished by the end of the year so it 
can go into coordination with the administration and be out 
early next year.
    Mrs. Lawrence. So many of you are aware that there is an 
app: I can call Siri, and I can say, ``What's flying above 
me,'' and it will tell me what flights are above me in the sky 
and where they're going, what airline it is. Do you anticipate 
any such app because my concern right now is, as a citizen, and 
there's drones flying above me, how do I identify what they are 
and why they're there and who they belong to?
    And that piece--it was interesting to me when this 
application was introduced to me. And I'm wondering if 
something similar to that will be required of the--this type of 
flying vehicle.
    Mr. Whitaker. Well, in today's world, if there's a drone 
flying above you, it's probably an amateur operator, and 
there's no system to track who that is and where they're going. 
It's an unregulated--by statute, an unregulated sector of the 
market.
    As you move forward with more fully integrated operations 
in the controlled airspace, you would expect to have some 
ability to know who's out there.
    Mrs. Lawrence. Well, you said you would expect. I want us 
to move toward the point of if there is a drone flying in my 
personal property space, that I as a citizen have the right to 
know who owns it, what's their purpose, and there would be a 
way for me to, if I have any issues, to have a way as a citizen 
to process that concern. And that, to me, is a very high 
concern of mine and people that I talk to.
    So getting back to the public, what will be the process of 
educating the public? And I would like to ask Mr. Geiger.
    Mr. Geiger. Geiger.
    Mrs. Lawrence. What is the proposed process so that when 
we--I anticipate an increase in the number of drones that we'll 
see. Where's the education process? When we adopt the rules and 
we get them accepted, where's the education of the public?
    Mr. Geiger. I think that you'll see education of the public 
from both government and private entities, and certainly 
there's been a lot of media attention about it to--if the 
question is how will the public know when there's a drone in 
their----
    Mrs. Lawrence. What are my rights?
    Mr. Geiger. Well, your rights are evolving, and I--as I 
said in my testimony, I think that your rights ought to be 
strengthened by Congress.
    Mrs. Lawrence. Yes.
    Mr. Geiger. When it comes to being able to tell whether or 
not--or what--identify a drone that is in your vicinity and 
where it's going and so forth, we think that the industry and 
government ought to work on technology that will enable that 
sort of transparency for citizens. There--transponders would be 
one option, but I understand that there are technical 
limitations due to their weight. I understand also that NASA is 
working with Verizon to leverage cell towers and that may hold 
some promise, although that also depends on the network. In 
addition, we think that there are other technical measures that 
individuals could use to signal their privacy preferences. One 
is geofencing. So, for example, noflyzones.org is sort of 
nascent effort in that regard where you can delineate some 
property and say: We would prefer if you did not fly here.
    And I think there's a variety of technologies that could 
get you there. I think that they are not quite yet ready for 
prime time, but I think what's important is that industry and 
government continue to work on them.
    Mrs. Lawrence. The other question, I have a few minutes, to 
Mr. Whitaker, in the rules, it talks about reporting an 
accident or damage within a certain amount of time. Will there 
be a requirement if you are licensed as a drone operator that 
you have insurance because if you--if your drone disables and 
then crashes on my property, or if there is a package being 
delivered and it destroys my prized rose garden or something, 
what will be the requirement for insurance?
    Mr. Whitaker. Typically we do not regulate insurance 
requirements in aviation so we leave it up to individual 
operators for insurance.
    Mrs. Lawrence. I just want to say for the record that if we 
are going to allow--I find it interesting. You don't require 
airlines to have insurance?
    Mr. Whitaker. Airlines have insurance for their own 
reasons, and most general aviation pilots have insurance for 
their own reasons. We're prohibited from regulating model 
aircraft, amateur aircraft operations. So we would not be 
allowed by statute to have that provision. But as a rule, we 
don't get into that area of requirement.
    Mrs. Lawrence. So if there was an accident, it was reported 
in 10 days, what happens?
    Mr. Whitaker. What happens with respect to?
    Mrs. Lawrence. FAA would just have a record of it. It would 
not be any--any requirement for drone operators to be insured?
    Mr. Whitaker. And there typically is a--will be a reporting 
requirement for accidents, and we investigate the cause of 
accidents but don't get involved in adjudicating liability.
    Mrs. Lawrence. My time is up, but I just want to say for 
the record that that is a concern of mine. Thank you.
    Mr. Mica. Thank you.
    We'll now recognize long-suffering waiting and senior 
member and also former chairman of the Aviation subcommittee, 
the gentleman from Tennessee, Mr. Duncan.
    Mr. Duncan. Well, thank you. Thank you, Mr. Chairman, and I 
don't have any questions, but I do want to express some 
concerns, and to do that I want to read a couple of--read from 
a couple of articles that have come out just in the last few 
days.
    I've read several articles about drones over the last year, 
year and a half, but Bari Weinberger, who's a lawyer who 
specializes in this area wrote a few days ago: For example, 
will a drone scheduled to deliver your overnight package be 
allowed to collect information about you during drop off. And 
if so, what kind of data? With drone technology advancing at a 
fast and furious pace, there are now UAVs with the ability to 
record video and audio, use facial recognition technology and 
collect electronic data, including signals from cell phones, 
garage door openers and radio frequency identification data, 
RFID, a technology used in consumer credit cards.
    And he mentions a case in--and some cases in which they are 
now using drones in divorce cases.
    And then Jeramie Scott, who is the head of an organization 
called the Electronic Privacy Information Center, wrote a few 
days ago: The FAA has also failed to consider the data 
collection implications of commercial drones. In an age of Big 
Data, companies flying commercial drones will likely look to 
surreptitiously collect data as they fly around performing 
other tasks, such as delivering packages. We saw a similar 
occurrence when Google Street View cars collected WiFi data 
while taking images for Google Maps. One company has already 
tested using drones to pinpoint cell phone and WiFi signals in 
order to identify customers for location-based advertising.
    And he goes on to say: There exists a lot of potential for 
the commercial use of drones, but there needs to be rules in 
place to protect against broad surveillance and data 
collection. That's why more than 100 experts and civil 
liberties organizations petitioned the FAA to develop privacy 
rules for drones. The FAA denied the petition, and Epic has 
subsequently filed suit again the agency to force it to 
consider privacy. Currently voluntary best practices are being 
developed, but best practices will not establish meaningful 
privacy safeguards.
    There's a lot of concern out there. Most people feel that 
we really don't have much privacy left anymore anyway due to 
the Internet and all the modern technology and not just drones. 
But to show you how much concern there is, I understand that 10 
states have now passed laws. And my own home State of 
Tennessee, which is a very pro-law-enforcement state, very pro-
law-enforcement, the legislature passed a law banning law 
enforcement agencies from using drones to collect evidence, to 
do surveillance, except in extremely limited circumstances. And 
so what I'm hopeful is, is that to maybe the FAA and some of 
your organizations will take a look at all these State laws, 
because the States seem to be sort of taking the lead in this 
so far, and see if you can't pick out some good things out of 
those State laws.
    And I think that, Mr. Misener, even companies that want to 
use this technology extensively, that because there is so much 
concern about privacy that you would be--your company would be 
well advised to try to come up with every possible way that you 
can to protect what limited--what little privacy or what very 
limited privacy people still have.
    And that's all I've got to say, Mr. Chairman. I yield back.
    Mr. Mica. Thank you for making those points.
    Did you want to response to any of that, Mr. Misener, or 
Mr.----
    Mr. Misener. Thank you, Mr. Chairman.
    Mr. Duncan, I agree that a company like ours has to take 
privacy extremely responsibly. We've done it for 20 years now, 
and we'll certainly extend those kinds of privacy protections 
with respect to Amazon Prime Air, which, of course, is a 
delivery service, not a surveillance operation.
    Mr. Mica. Mr. Geiger.
    Mr. Geiger. If people don't think that they have much 
privacy now, they should just wait for the new class of 
technologies that will enable very intrusive physical 
surveillance. That's just coming. The examples that you read 
are indeed troubling, and I glad that you mentioned in those 
passages that there are other types of surveillance that can be 
enabled by drones besides just video observation. They can be 
outfitted with an array of sensors that include, for example, 
cell phone tower emulators that we saw the Federal Government 
use these on tens of thousands of individuals just in the past 
year.
    In terms of how to provide individuals with that kind of 
privacy, you know, the privacy torts get you some, but, again, 
it's limited because it's limited to a reasonable--reasonable--
what is highly offensive to a reasonable person standard. And 
it is unclear the degree to which Congress can directly 
regulate those kinds of uses without violating the First 
Amendment right to collect data in public places.
    However, we think that the industry should take the lead 
and in a strong and enforceable code of conduct. And, 
unfortunately, the existing codes of conducts are not 
sufficient for that purpose.
    You mentioned your State laws. States are indeed taking the 
lead on privacy laws, but the--and part of that is because of 
Federal inertia in response to the concerns of their citizens. 
But the patchwork of State privacy laws is also going to be 
difficult for the industry to navigate, particularly for a 
technology like UAS, which could fly between the borders of 
individual States. So I think that providing some sort of 
regulatory certainty with regard to privacy will benefit both 
individuals as well as commerce.
    Mr. Duncan. Well, thank you.
    Mr. Mica. Thank you.
    Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman.
    And thank you for holding this hearing. It really raises 
some pretty fundamental questions about the future and values 
and parts of our philosophy we thought were settled.
    And I think, Mr. Geiger, you're quite right to raise the 
flag on, what does privacy mean as we move toward the future? I 
mean, even a commercial drone whose mission is purely the 
delivery of a good could be equipped with surveillance 
equipment and actually penetrate the walls of a house and look 
into what's going on. Now, technology isn't far away from being 
able to do that. I'm not arguing anyone would do that, but 
we're going to--you know, and the proliferation of drones is 
going to make it very difficult to enforce even those 
regulations we ultimately adopt. So it's a fascinating frontier 
kind of issue for us, and I don't think we have easy answers 
yet. But I thank you so much for helping highlight them.
    Mr. Whitaker, I was listening to Mrs. Lawrence, and before 
I ask Mr. Misener some questions about Amazon and their 
operation, what is--if I'm a homeowner, how high up do I go in 
my property control? Can someone fly 500 feet from my roof?
    Mr. Whitaker. So I think, as Mr. Geiger has----
    Mr. Connolly. I'm going to ask all of you please to speak 
into the mic and move it closer.
    Mr. Whitaker. So I think Mr. Geiger articulated earlier, 
it's a bit unsettled. Clearly, if it's 500 feet above your 
house, it's federally regulated airspace. And when federally 
regulated airspace was defined decades and decades ago, there 
was no thought of a gray area. But I think now we're probably 
facing a gray area. But by statute, all the airspace is Federal 
airspace and regulated federally.
    Mr. Connolly. So if a commercial drone is flying within 3 
feet of my roof, is that federally regulated airspace?
    Mr. Whitaker. I think you're pushing at those gray areas.
    Mr. Connolly. Yeah. Yeah. I just think we're going to have 
to revisit that too because, I mean, presumably if somebody's 
flying in to deliver fine chocolates and French bubbly to my 
neighbor, did I mention fine chocolates and French bubbly, you 
know, they may need to get close to land, if that's what 
they're doing, and they may be violating, from my point of 
view, my--they're trespassing. They're trespassing on my 
property, including above my roof.
    Mr. Whitaker. I think these are real issues and the legal 
structure hasn't had to address them----
    Mr. Connolly. Okay. So we've got legal issues, and we've 
got privacy issues, and we got constitutional issues, and we 
got commercial issues, and we got economic issues, and all 
kinds of issues.
    Mr. Misener, Amazon's been vocal about its concerns 
regarding the FAA proposed rule, and Amazon argues, ``Overly 
prescriptive restrictions are likely to have the unintended 
effect of stifling innovation and, over time, will fail to 
offer any corresponding safety benefits as small UAS technology 
evolves.''
    How do you believe the proposed rule stifles innovation? 
And I'm going to ask you particularly to speak into the mic. 
Thank you.
    Mr. Misener. Mr. Connolly, I will speak directly in. Thank 
you.
    We believe that it's overly prescriptive in the sense that 
it draws distinctions between--within visual-line-of-sight and 
beyond-visual-line-of-sight kinds of operations in a way that 
is just artificial. I mean, both should be subjected to a risk- 
and performance-based analysis. Certainly the risks involved in 
beyond-visual-line-of-sight operations are greater than those 
within visual line of sight. Highly automated operations 
require higher performance than less automated operations. 
Those are very clear.
    But the method of analyzing the different kinds of 
operations should be identical, and so we are concerned that 
the NPRM tends to just cut those ones off and proscribe them, 
just basically say: We're not going to deal with them.
    Now, Mr. Whitaker said the FAA is going to get to them. 
We're just suggesting that they get to them now and consider 
all these types of operations simultaneously, acknowledging 
that there are different risks involved and different 
performance requirements necessary to mitigate those risks.
    Mr. Connolly. I understand that Amazon's offered to 
actually show on a pilot basis that some of the concerns being 
discussed in the rulemaking can be managed without overly 
prescriptive regulation, including a line of sight, including 
multiple drone operation, and other such issues.
    Is that the case, that you've offered to do that kind of 
pilot program?
    Mr. Misener. Yes, sir, in a variety of ways. We're working 
closely with NASA. In fact, we'll be a keynote presenter at 
your conference at the end of July, and, you know, the 
Pathfinder Project being undertaken by BNSF, that's something 
looks interesting to us. Some--figure out a way to----
    Mr. Connolly. But, I mean, have you made that proposal to 
Mr. Whitaker and his colleagues that why don't you let us show 
you how it can be done safely before you adopt a final rule?
    Mr. Misener. Yeah, I think these are parallel paths. One is 
to show the technology, the other is to work on the rules.
    Mr. Connolly. Mr. Whitaker, is your--are you and your 
agency open to that kind of demonstration to at least evaluate 
the parameters and scope of what is doable and what is 
problematic?
    Mr. Whitaker. I think the Pathfinder Program, which did 
that with BNSF, is the kind of program we need to have to prove 
those technologies. So we certainly are open to that.
    Mr. Connolly. And I--if the chair will allow one final 
question, another provision you have expressed concern about, 
Mr. Misener, Amazon, that is to say, is the requirement that 
one operator control no more than one drone system at a time. 
Why do you believe that's too restrictive?
    Mr. Misener. Thank you, Mr. Connolly. Because the 
technology exists so that a single operator could allow--could 
oversee the operation of multiple UAVs, and it--just to 
restrict one drone to one operator is just overly restrictive 
and certainly unnecessary, from a technological----
    Mr. Connolly. Mr. Whitaker that sounds reasonable on 
Amazon's part. I mean, I look at FAA controllers. We don't say 
to an FAA controller: You follow one plane coming in or going 
out. That's it. Because, otherwise, we don't believe you've got 
control, and it taxes the system.
    Maybe that's not a perfect analogy, but technology kind of 
does allow us to do more than one thing at a time. What's wrong 
with Amazon's point of view on that?
    Mr. Whitaker. I think that we will get there in certain 
circumstances. I mean, right now, you have two pilots in each 
airplane and you have controllers, and in a new system, you--if 
it's a large aircraft, certainly there will be one per 
aircraft, but if it's quite small, there could be scenarios 
where it's multiple units, but the technology has to be proven, 
standards have to be developed, and then it comes into play.
    Mr. Connolly. Okay. Thank you, Mr. Chairman. And thank you 
so much for having this hearing. I hope we have more of them, 
frankly, because I think we've just begun to look at new 
territory.
    Mr. Mica. It's an important subject.
    Mr. Hurd.
    Mr. Hurd. Thank you, Mr. Chairman.
    In 2001, when I was under the tutelage of Ambassador Hank 
Crumpton and we were prosecuting the war in Afghanistan, the 
CIA, the Counterterrorism Center and Special Operations 
Division kind of was the innovator in the use of drones in 
operations. Right? You know, we had Air Force bird Army 
ordnance under the operational control of the CIA. Something 
like that had never happened. And almost 15 years ago, when we 
were doing that, I never would have thought that I'd be sitting 
somewhere talking about using UAVs to monitor, you know, the 
herds of cattle in west Texas or having fine chocolate or 
bubbly delivered to Mr. Connolly's neighbor. So this is an 
exciting time.
    But one of my concerns is, you know, one of the things 
that's made this country great is we're always on the edge of 
innovation. You know, we have the greatest entrepreneurs in the 
world, and my question is to Mr. Wynne. Are--in the development 
of this technology, is the U.S. leading on this? Do we have 
other competitors? Are there other countries that are beating 
us?
    Mr. Wynne. Well, it's a great question, sir, and thank you 
for your service.
    I would say simply that this is a global phenomenon. UAS 
are really being taken up at very rapid pace around the world 
for a variety of different reasons. And, ultimately, we want 
global harmonization of the regulations so that there is safe 
and responsible flight everywhere.
    I would say that we are--we have the potential to continue 
to lead in aviation innovation in this country. I think we're 
on the right path to getting back to that. I think there had 
been a little bit of a culture clash from the technology world 
into the aviation world. I'm an aviator myself, as are some of 
the other panelists, and we appreciate the fact that, you know, 
that this is a different--a different type of approach to 
aviation. But there's a lot of sky up there that can be used 
efficiently for an awful lot of things, and a lot of lives, 
frankly, that can be saved doing things that are very dangerous 
today that don't need to be done by humans. So we call that 
enhancing human potential.
    Mr. Hurd. So my next question is to Mr. Misener. You know, 
the possibility--when I came up to D.C. from Texas this week, I 
forgot my running shoes. And the idea of possibly having those 
delivered by an Amazon UAV within a couple of hours is pretty 
interesting.
    But you've heard a lot of these privacy concerns that we've 
talked about here. And they're valid. And this is going to 
continue to be an issue. How are you all, I think one of the 
things you all are leading in this area in commercial 
development, how are you planning to gain the trust of the 
American people?
    Mr. Misener. Thank you, Mr. Hurd.
    It's a core question about this service for anyone who is 
responsibly pursuing the commercial activity here. We have to 
engender trust. And the trust on privacy matters that we've 
garnered over the past 20 years is because--has been a result 
of our focus on consumer information privacy. And we will 
continue to that when it comes to Amazon Prime Air.
    We are strongly supportive of the NTIA process. And we're 
going to be participating in that and, hopefully, developing 
solid, serious, best practices for an entire industry.
    Mr. Hurd. I appreciate that.
    Mr. Cavolowsky, the question to you is on this UAS traffic 
management system that you all are working on, what are kind of 
the main challenges you all have left that are the barriers to 
the deployment of the system?
    Mr. Cavolowsky. So many of the same concerns that have been 
brought up by other panelists are things that we need to 
address in a technological fashion. So these are very complex 
software systems where there is coordinated interaction among 
the aircraft. Being able to verify and validate that they are 
safely, providing that safe separation is a critical challenge. 
Ensuring safe operations for all UAS but also other general 
aviation aircraft in that airspace is also a technical 
challenge we need to step up to, certainly beyond line of 
sight.
    And another key element that has been brought up by the 
panel is the challenge of the first and last 50 feet of flight. 
In particular, the last 50 feet, if you will, with the 
interaction or potential interaction with property and people. 
The elements of the control of the management of that safely in 
an environment that can be unpredictable is a major element of 
what we're trying to develop technology solutions around and 
procedural solutions around.
    Mr. Hurd. Thank you.
    Mr. Mica. Thank you.
    And, waiting patiently, I want to recognize the lady from 
New Mexico, Ms. Lujan Grisham.
    Thank you for your patience. You're recognized.
    Ms. Lujan Grisham. Thank you, Mr. Chairman. I, too, want to 
thank you for the hearing.
    And I agree that we ought to have potentially more of the 
hearings because there's a broad base set of issues that do 
need to be addressed. And there needs to be a regulatory 
environment to do that.
    I certainly agree that we want to deal with the public 
safety issues. We want to deal with the privacy issues. But 
there's a real opportunity to enhance the economic benefits and 
making sure that that's addressed in a meaningful and balanced 
way.
    I represent a State that has been very slow to recover from 
the 2008 recession. In fact, we've got the slowest recovery 
rate in the country. And we've got a company, Volo Pervidi, 
that has just gotten FAA approval. Our office worked with you 
all to do that, to do the kind of mapping and the kind of work 
that we're hearing a lot about in today's hearing. And not only 
are they talking about the vast economic opportunity in our 
State, and whenever I have an opportunity to talk about jobs, 
that's the number one priority, but they talk about nationally 
that the billions of dollars that could be generated--so I 
appreciate having Google here at the table--by these 
investments.
    There's also a public safety factor that I don't want to 
ignore, not just in the regulatory environment that we need to 
proceed with for unmanned aircraft, but if we're using them to 
assess problems on the Golden Gate Bridge or we're using them 
to inspect power lines, we're creating a public safety benefit 
by not having to use workers to do that work directly and 
physically, which is high risk and continues to be problematic. 
When I think about liability for companies and governments and 
local governments and utility companies, it's significant. So 
I'm seeing great opportunity. And, with that, there is risk.
    I have really two questions. You've been working to address 
that you recognize there's got to be a thoughtful but balanced 
approach. And as a former long-time and I would like to think 
effective bureaucrat for 17 years, bureaucracies don't always 
find themselves in the most flexible environment. And the 
problem here is that this technology is changing every minute, 
probably every second, as all technology does.
    And in the thoughtful process that you all have to address 
privacy and public safety and managing that airspace 
productively and encouraging companies to come forward and give 
you ideas so we're not thwarting those economic, valuable 
economic investments, by the time you make those rules, 
arguably, they could be outdated.
    What is your process for thinking about making sure that 
this is a fluid, ongoing environment so that we avail ourselves 
of every opportunity without mitigating our responsibility to 
manage productively for my constituents and for the country 
real risks associated with any aircraft?
    Mr. Whitaker, maybe that's something for you.
    Mr. Whitaker. I think several times this morning it's been 
mentioned that we need a risk-based and a performance-based 
regulatory system. And that's very much, we're all very much 
aligned on that point. We don't want to necessarily tell you 
how you're going to achieve certain levels of safety, but we 
want to define what those are and what the necessary standards 
are to get there. So when we, for example, get to a final rule, 
then it will provide parameters. And in the operations within 
those parameters, we don't have to guess what they might be. 
They'll be allowed as long as they continue to be safe. As we 
continue to expand the acceptable range of operations, that 
same principle will apply.
    Ms. Lujan Grisham. And maybe, Mr. Wynne, what can Congress 
do that is more productive in this environment, that provides 
both productive resources and investments in just exactly this, 
this sort of risk assessment and performance model? What is 
Congress' role here? And what can we do to enhance these 
efforts?
    Mr. Wynne. I appreciate the question. I think the point 
that I've been laboring to articulate here is that the economic 
opportunity is not just immediate, it needs to be sustainable. 
And so all of the questions that we're discussing, in 
technology, we call it a binary conversation. Really cool 
technology can do a lot of good stuff, but we have safety, we 
have security, we have privacy questions. We go through this 
with every technology pretty much. And the same kinds of 
questions Mr. Geiger is bringing up can also be applied on a 
technology-specific basis to license-plate readers. They can be 
applied to body cameras. They can be applied in a whole bunch 
of technology contexts.
    The industry needs to do this in a way that's sustainable. 
Otherwise, it won't work. And I agree with Mr. Misener when he 
said it's in our customer--it's in our interest to make certain 
that our customer's privacy is protected. And it's in our 
interest also, as an industry, to make certain that we can do 
this on a sustained basis. Incidents, mishaps, et cetera, while 
they are common in aviation and we learn from them, we don't 
want them. And we're doing our best to make certain that we 
maintain the extremely high level of safety going forward.
    To your question, ma'am, I think all of this comes back to 
FAA reauthorization, which is an extremely important matter 
before Congress immediately. And we have submitted for the 
record of the Transportation Committee what we think is 
important in that regard. So I won't enumerate that here. But I 
think it's also really important for the safety of the entire 
system that we do that on time.
    Ms. Lujan Grisham. Fair enough. Thank you very much.
    And, Mr. Chairman, I yield back.
    Thank you for the panel.
    Mr. Mica. Thank you. And thank you for your patience.
    I want to thank our panel too.
    I've got a couple of quick points. One, okay, Mr. Whitaker, 
you testified today that it would, in 1 year, you would have 
the rule out. Is that going to be September 30 of 2016? Or is 
that going to be June 17 of 2016?
    Mr. Whitaker. Hopefully before June 17, 2016.
    Mr. Mica. That's 1 year from today. We'll note that in the 
record. And I'll ask the staff to schedule a hearing in June of 
next year. And we'll see how we're going there.
    I think you got to have milestones to get things done. I 
put a milestone in the bill, which was September of this year. 
It's not going to be met. And we're operating on sort of a 
helter-skelter basis with these waivers and exemptions. And you 
told me you have been doing about 50 a week, is it?
    Mr. Whitaker. That's correct.
    Mr. Mica. So 50 a week. We've got 10 weeks; there's 500. By 
the time of next year, we should be doing how many? Several 
thousand at that rate. So we'll have a patchwork of exemptions 
and waivers until we get to the final rule, I mean, if you keep 
it up at that rate.
    Whitaker. Yes.
    Mr. Mica. Just an assumption. See, that's not totally 
acceptable. I know you have to have something in the interim. 
The other thing too is the Office of Inspector General 
published this report June 26, 2014, with a list of 
recommendations. I've got--1, 2, 3, 4, 5, 6, 7, 8, 9, 10--11 
major recommendations by OIG. Now, I have a report as of June--
that's this month--of 2015. All of these are unmet. All of 
these are unmet. Some were supposed to be achieved and 
accomplished by--here's one, October 30, 2014. I'm going to 
submit to you and FAA this list. And within the time, we're 
keeping the record open for 10 days, I want a response that 
will be in the record of--make certain--that this is your 
response to OIG. But I want to make certain that that is in the 
record and confirm when you will achieve the recommendations 
that OIG put in their audit from 2014 that they're giving me 
this report on, this month, 2015.
    Mr. Mica. Do you see what I want? Any questions?
    Mr. Whitaker. No.
    Mr. Mica. In the record by the time--again, we're going to 
do another hearing a year out. You said you're going to do 
that. These are important milestones that OIG identified a year 
ago to be completed. And I want that report in the record so 
that we have these milestones met.
    All right. The final thing, you talked about, Mr. Misener, 
that sensor and avoidance technologies, now, they're important 
because you can put these things up, you testified, and you 
have technology either being developed or on the shelf that can 
avoid collisions or incidents. Is that correct?
    Mr. Misener. Yes, Mr. Chairman.
    Mr. Mica. Okay. But those systems have to be approved by 
FAA for use, wouldn't they, Mr. Whitaker?
    Mr. Whitaker. Yes. We'll have to verify the technology.
    Mr. Mica. See, this goes back to my point at the beginning, 
I think the last member, too, raised this technology is 
changing dramatically. But we have a failure of the law to keep 
up with rules and regulations to keep up. So we're going to 
have to have some mechanism to make certain that, in fact, the 
equipment that can avoid risk, avoid a disaster, avoid 
collision is certified in a manner. Do you have a separate 
office to certify this type of equipment?
    Mr. Whitaker. We certify aircraft on a number of fronts. 
And ultimately----
    Mr. Mica. I know. But that is also, I hear lots of 
complaints, how long it takes for certification, how further 
behind we're falling. But we're doing an FAA bill, we're doing 
FAA appropriations. We need to make sure that you have the 
resources, that you set in place a mechanism to quickly certify 
the technologies or do it in some reasonable fashion. The 
problem you've got now is by the time they get the damn 
technology done and you get it approved, there will be another 
technology right behind it that is even faster. So we're 
falling further behind in our certification of equipment that 
will avoid disaster.
    Do you see what I'm saying? FAA doesn't look very 
prospectively or how they're going to sometimes handle these 
things. If this is all just rolled into normal FAA 
certification, I don't think it's going to succeed. So if you 
have a recommendation or something you want to come back at, 
what you need to beef up, if you need to separate out, if we 
need someone in FAA focused on this for the future--at stake 
is, one, safety, and two is our entering the commercial age, 
which this is all about. But you can't do that unless you've 
got the rules, the certification, and keeping up with the 
technology.
    They'll find a way to get that, I thought you said chopped 
liver--Hurd said chopped liver, but it was fine chocolates to 
Mr. Connolly. I had a little fun with that. But, in any event, 
whatever we're delivering, it's a commercial opportunity and a 
great economic boost.
    Okay. So those are my quick questions. It's amazing what 
we've done. They've already flown an unmanned vehicle--or an 
aerial vehicle from Australia to Los Angeles, a cargo plane, 
without a pilot. And then another thing too is certifying the 
pilots because there are different categories of what is going 
up there, but different categories of who should be qualified 
if they're not in the drone but they're piloting the drone. 
We've got to make certain we've got the rules in place so those 
people also have the qualifications.
    But I'm afraid we're not keeping up with it. And we've got 
to be able to set it in law in the FAA reauthorization or 
wherever. And then we haven't even talked about the privacy 
issue here. Again, I go back to the problem we had when we 
developed this, we were told no to privacy; it was a different 
domain and jurisdiction. But that is very important. And I'll 
look at the proposed legislation and the other things you 
mentioned. But, again, the Transportation Committee was not 
allowed to go down that path. But it's a serious one we need to 
address.
    I think that those are some of the major issues. And we'll 
look forward to your responses. We'll make certain the staff 
gives you a copy of this list. And we want that in the record.
    Again, I thank each of you for participating, our members 
for their patience. It was a productive hearing and hopefully 
move this all forward together.
    There being no further business before the full Committee 
on Government Reform and Oversight, this hearing is adjourned.
    [Whereupon, at 11:23 a.m., the committee was adjourned.]




                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
